                                      SOCIAL SECURITY
MEMORANDUM

Date:      April 18, 2011                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: The Social Security Administration’s Fiscal Year 2010
           Performance Indicators (A-02-10-11076)


           We contracted with KPMG to determine whether the Social Security Administration’s
           (SSA) key programs and activities critical to achieving its four strategic goals were
           addressed by its Fiscal Year 2010 performance indicators, and, if so, whether those
           indicators were objective, understandable, and outcome-based. The attached final
           report presents the results of KPMG’s overall analysis of SSA’s performance measures.
           We also asked KPMG to evaluate the controls over and the reliability of the
           performance data that support 10 of SSA’s performance indicators established to
           comply with the Government Performance and Results Act of 1993. The results of this
           work were released in separate reports.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                   Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   PERFORMANCE INDICATOR AUDIT:
        THE SOCIAL SECURITY
  ADMINISTRATION’S FISCAL YEAR 2010
     PERFORMANCE INDICATORS

      April 2011   A-02-10-11076




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
Table Of Contents

Executive Summary                                                   1
Introduction                                                        3
Results of Review                                                   5
Other Observations                                                  27
Conclusions and Recommendations                                     29
Appendices

Table 1: Alignment of Key Programs and Performance Indicators       6
Table 2: Alignment of Key Activities and Performance Indicators     9
Table 3: Alignment of the Social Security Administration’s
      Strategic Goals and Objectives and Performance Indicators     12
Table 4: Summary of Objective, Understandable, Output vs. Outcome   20
Table 5: Summary of Recommendations                                 30
Executive Summary
This report presents the results of our work to address the performance audit objectives
relative to the Social Security Administration’s (SSA) Fiscal Year (FY) 2010
performance indicators (PI). We conducted our work from December 4, 2009 through
March 30, 2010, and our results are as of March 30, 2010.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

OBJECTIVE

Our objective was to determine whether SSA’s key programs and activities critical to
achieving its four strategic goals were addressed by its FY 2010 PIs, and, if so, whether
those indicators were objective, understandable, and outcome-based.

BACKGROUND

The Government Performance and Results Act of 1993 (GPRA) seeks to improve the
Government’s internal management, as well as program effectiveness and public
accountability, by promoting a new focus on results, service quality, and customer
satisfaction. Specifically, GPRA requires that SSA establish PIs to be used in
measuring or assessing the relevant outputs, service levels, and outcomes of each
program activity.

RESULTS OF REVIEW

SSA continues to make great strides in meeting GPRA’s objectives and has shown
continued refinement of its PIs from year to year. While SSA has improved the overall
quality of its PIs, further refinements would create more results-based indicators.

We evaluated SSA’s PIs to determine whether SSA’s key programs and activities were
addressed by those indicators. Of the 27 PIs, there were 3 indicators that did not
measure or assess the relevant output, service levels, and outcomes of the Agency’s
key programs for FY 2010. Of SSA’s 14 key activities, 3 were not addressed directly by
any of SSA’s FY 2010 PIs.

We evaluated SSA’s alignment of its PIs with it strategic goals and objectives and found
that 3 strategic goals and objectives did not have an associated PI, and 16 PIs were
ineffective measures of the Agency’s progress in achieving its strategic goals and
objectives.


SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                  1
Finally, we evaluated SSA’s PIs to determine whether they met our criteria, which are
based on relevant criteria from the Office of Management and Budget (OMB) and
Government Accountability Office (GAO) for being objective, understandable, and
outcome-based. For the Agency’s 27 PIs, we found that

•   23 were objective;

•   23 were understandable; and

•   12 were outcome-based.

RECOMMENDATIONS

As SSA develops its strategic plan for FYs 2013 – 2018 and future Annual Performance
Plans (APP), we believe it should consider the 26 recommendations in this report, which
would develop more outcome-based PIs that support its key programs and activities
and measure its progress on its strategic goals and objectives.

AGENCY COMMENTS

SSA disagreed with 21 recommendations, agreed to consider 4 recommendations, and
partially agreed to consider 1 recommendation.

KPMG RESPONSE

To the extent SSA can move to more outcome-based measurement, we believe the
expectations of the President and the Congress for performance and results
mangement would be better achieved. Outcomes more clearly correlate to results,
which is at the heart of GPRA in setting forth that PIs in an agency’s performance plan
“…. shall provide a basis for comparing actual program results with the established
performance goals.”
                               ************************************

This performance audit did not constitute an audit of financial statements in accordance
with generally accepted government auditing standards. KPMG was not engaged to,
and did not, render an opinion on SSA’s internal controls over financial reporting or over
financial management systems (for purposes of OMB Circular No. A-127, Financial
Management Systems, July 23, 1993, as revised). KPMG cautions that projecting the
results of our evaluation to future periods is subject to the risks that controls may
become inadequate because of changes in conditions or because compliance with
controls may deteriorate.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                  2
Introduction
OBJECTIVE

Our objective was to determine whether the Social Security Administration’s (SSA) key
programs and activities critical to achieving its four strategic goals were addressed by
its Fiscal Year (FY) 2010 performance indiators (PI), and, if so, whether those indicators
were objective, understandable, and outcome-based.

BACKGROUND

The Government Performance and Results Act of 1993 (GPRA) seeks to improve the
Government’s internal management, as well as program effectiveness and public
accountability, by promoting a focus on results, service quality, and customer
satisfaction. 1 Specifically, GPRA requires that SSA establish PIs to be used in
measuring or assessing the relevant outputs, service levels, and outcomes of each
program activity.

Per Office of Management and Budget (OMB) Circular A-11, an agency’s strategic plan,
such as the one that SSA develops, “. . . features declarative statements also known as
strategic goals, which state what the agency wants to accomplish in terms of outcomes
or results. Each strategic goal is supported by performance goals – performance
measures with time-specific targets. Agency strategic plans also provide a framework
for annual performance plans and reports.” 2

GPRA requires that the strategic plan describe the relationship between the PIs and the
strategic goals. 3 PIs determine priorities and set targets, as well as allow agencies and
the public to track progress on reaching goals. A PI defines the targeted level of
performance over time as a tangible, measurable objective against which actual
achievement can be compared. Managers and employees are responsible for aligning
resources and responsibilities to achieve results that clearly link to the goals outlined in
the strategic plan. For each strategic goal included in the strategic plan, the agency
should include a limited number of long-term, outcome-oriented PIs. 4

1
  Pub. L. No. 103-62, 107 Stat. 286 (codified as amended in scattered sections of 5 United States Code
(U.S.C.), 31 U.S.C. and 39 U.S.C.). On January 4, 2011, the President signed the GPRA Modernization
Act of 2010, Pub. L. No. 111-352, 124 Stat. 3866. The new law, in building on the provisions of GPRA,
requires that Federal agencies set clear performance goals that they can accurately measure and publicly
report in a more transparent way.
2
    OMB Circular A-11 (Aug 2009), Preparation, Submission and Execution of the Budget, Section 210.1.
3
    31 U.S.C. § 1115(a)(4).
4
 OMB Circular A-11 (August 2009), Preparation, Submission and Execution of the Budget,
Section 210.2.


SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                3
The President’s FY 2011 Budget 5 indicated the need for outcome-oriented PIs and
goals. “Government operates more effectively when it focuses on outcomes, when
leaders set clear and measurable goals, and when agencies use measurement to
reinforce priorities, motivate actions, and illuminate a path to improvement.” It also
states, that “. . . transparent, coherent performance information contributes to more
effective, efficient, fair, and responsive government.”

An agency’s Strategic Plan sets forth the organization’s strategic goals and strategic
objectives. A strategic goal is the broader concept that the agency would like to achieve
in support of, and to enhance, the agency’s key programs and activities. Strategic
objectives are essentially goals with a narrower, more defined scope such that the
achievement of the strategic objectives will lead to the achievement of the
organization’s strategic goals. The PIs that are chosen to measure an organization’s
progress must support the strategic goals and objectives set forth in the Strategic Plan.

PIs should measure an agency’s progress toward achieving a strategic objective; the
achievement of the strategic objective should show progress toward achieving an
agency’s strategic goal; the achievement of a strategic goal will ultimately improve and
enhance the key activities that the agency performs on behalf of the public; and lastly
the key activities of an agency should clearly be in support of one or more of an
agency’s key programs.

SCOPE AND METHODOLOGY

To assess SSA’s FY 2010 PIs, we:
•   Reviewed the APP for FY 2011 and Revised Final Performance Plan for 2010 to
    obtain an understanding of the FY 2010 PIs.
•   Reviewed the Strategic Plan Fiscal Years 2008-2013—which sets forth and defines
    SSA’s strategic goals and objectives.
•   Reviewed prior Office of the Inspector General (OIG) and Government Accountability
    Office (GAO) reports related to SSA’s PIs.
•   Assessed SSA’s 27 PIs and aligned them to 3 key programs and 14 activities critical
    to SSA's delivery of its day-to-day services and achievement of its 4 strategic goals.
    We determined the reasonableness of the relationships between the PIs and the
    Agency’s key activities and key programs based on the scope of each PI.
•   Determined whether the 27 PIs measured the achievement of identified strategic
    goals and objectives.
•   Reviewed relevant OMB and GAO guidance to develop criteria for defining objective,
    understandable, and outcome-based PIs.



5
 The President’s FY 2011 Budget:
http://www.whitehouse.gov/omb/budget/fy2011/assets/management.pdf.

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                     4
•   Reviewed each of the 27 PIs to determine whether the individual indicators met the
    established criteria for being objective, understandable, and outcome-based.
•   Reviewed the OIG’s FY 2009 Statement on SSA’s Major Management and
    Performance Challenges 6 to determine whether the issues identified had adequate PI
    coverage.
•   Identified opportunities for new performance measures to assist SSA in increasing its
    focus on program results.

We performed our assessment at SSA Headquarters in Baltimore, Maryland. We
conducted our review between December 2009 and March 2010. Our assessment was
performed in accordance with generally accepted government auditing standards.

Results of Review
SSA continues to make great strides in meeting GPRA’s objectives and has shown
continued refinement of it PIs from year to year. Since the last assessment of SSA’s
PIs in 2003, 7 SSA’s PIs have been reduced from 84 to 27, demonstrating a commitment
to create more results-based indicators that are better targeted to SSA’s strategic goals
and objectives. While SSA has improved the overall quality of its PIs, further
refinements would create even more results-based indicators.

Alignment of SSA’s Key Programs and PIs

SSA administers three key programs: Old-Age and Survivors Insurance (OASI),
Disability Insurance (DI), and Supplemental Security Income (SSI). We reviewed the
key programs to determine whether they were supported by SSA’s FY 2010 PIs. Three
of the 27 PIs did not measure or assess the relevant output, service levels, and
outcomes of any of the Agency’s key programs for FY 2010; specifically, PI 4.5a –
“Receive an unqualified audit opinion on SSA’s financial statements;” PI 4.6a –
“Replace gasoline-powered vehicles with alternative-fuel vehicles;” and PI 4.6b –
“Develop and implement an agency Environmental Management System.” See Table 1
for alignment of the key programs and PIs.




6
 FY 2009 SSA Performance and Accountability Report (PAR):
http://www.ssa.gov/finance/2009/Full%20FY%202009%20PAR.pdf.
7
 SSA OIG, Assessment of the Social Security Administration’s Performance Measures (A-02-02-12050),
April 2003.

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                           5
                                Table 1: Alignment of Key Programs and PIs


                                                                                                                      KEY PROGRAMS




                                                                                                       OASI Program




                                                                                                                                        SSI Program
                                                                                                                           DI Program
 No.                                                  PI




PI 1.1a                     Complete the budgeted number of hearing requests                                               X              X


PI 1.2a                   Achieve the target number of hearing requests pending                                            X              X


PI 1.2b             Achieve the target to eliminate the oldest hearing requests pending                                    X              X


PI 1.2c        Achieve the budgeted goal for average processing time for hearing requests                                  X              X



PI 1.2d   Achieve the target to eliminate the oldest Appeals Council requests for review pending                           X              X



PI 1.2e    Achieve the target average processing time for Appeals Council requests for review.                             X              X



          Achieve the target percentage of initial disability cases identified as a Quick Disability
PI 2.1a                                                                                                                    X              X
                      Determination (QDD) or a Compassionate Allowance (CAL)



PI 2.1b                  Complete the budgeted number of initial disability claims                                         X              X



PI 2.1c   Minimize average processing time for initial disability claims to provide timely decisions                       X              X



PI 2.2a             Achieve the target percentage of initial disability claims filed online                                X


PI 2.2b                Achieve the target number of initial disability claims pending                                      X              X

PI 2.3a                         Update the medical Listings of Impairments                                                 X              X


             Increase the percentage of disability claims completed using Health Information
PI2.3b                                                                                                                     X              X
                                               Technology


PI 3.1a   Percent of retirement and survivors claims receipts completed up to the budgeted level       X


PI 3.1b               Achieve the target percentage of retirement claims filed online                  X




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                                      6
                                                                                                                  KEY PROGRAMS




                                                                                                   OASI Program




                                                                                                                                    SSI Program
                                                                                                                       DI Program
    No.                                            PI




PI 3.3a             Achieve the target speed in answering National 800 number calls                X                   X              X


PI 3.3b                Achieve the target busy rate for National 800 number calls                  X                   X              X


             Percent of individuals who do business with SSA rating the overall services as
PI 3.4a                                                                                            X                   X              X
                                    “excellent,” “very good,” or “good”

          Achieve the target percentage for correctly assigning original Social Security numbers
PI 3.5a                                                                                            X                   X              X
                                                  (SSN)


PI 4.1a          Complete the budgeted number of SSI non-disability redeterminations                                                  X


PI 4.1b               Process the budgeted number of continuing disability reviews                                     X              X


           Percent of Supplemental Security Income payments free of overpayment (O/P) and
PI 4.1c                                                                                                                               X
                                     underpayment (U/P) Error


          Percent of Old-Age, Survivors and Disability Insurance payments free of O/P and U/P
PI 4.1d                                                                                            X                   X
                                                 Error


PI 4.3a               Reduce the target percentage of paper forms W-2 completed                    X                   X              X


PI 4.5a            Receive an unqualified audit opinion on SSA’s financial statements


PI 4.6a             Replace gasoline-powered vehicles with alternative-fuel vehicles


PI 4.6b         Develop and implement an agency Environmental Management System




Alignment of SSA’s Key Activities and PIs

In addition to its 3 key programs, SSA identified the following 14 activities that it deems
critical to the delivery of its day-to-day services and achievement of its 4 strategic goals.

•   800-Number Telephone Service
•   Claims Processing
•   Curb Improper Payments
•   Customer Service
•   Earnings Processing

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                                  7
•    Employees (Human Capital)
•    Encouraging Saving
•    Enumeration
•    Health Information Technology
•    Information Technology
•    Policy Updates and Improvements
•    Post-Entitlement
•    Protect Programs from Waste, Fraud, and Abuse
•    Use ‘Green’ Solutions

We reviewed SSA’s key activities to determine whether they were supported by the PIs
for FY 2010. Of the 14 key activities, 3 of SSA’s key activities—(1) Employees (Human
Capital), (2) Encouraging Saving, and (3) Information Technology—were not addressed
directly by any of SSA’s FY 2010 PIs.

In its Strategic Plan Fiscal Years 2008 – 2013, SSA identified Employees and
Information Technology as key foundational elements. SSA indicated that “. . . our
success in achieving our strategic goals depends on two key elements: our employees
and information technology. We must make the investments necessary to develop and
support our employees and information technology because they are essential to
everything we do.” 8 SSA’s challenge is maintaining vital institutional knowledge and
improving productivity given the projected retirement rate of its workforce. In addition,
SSA is equally challenged with modernizing its information technology infrastructure to
manage its workload volumes and responsibilities. Because of the significance of these
foundational elements to the Agency in achieving its strategic goals, we believe SSA
should develop measures to manage the challenges posed by these elements.
However, the results of the measures did not appear to address SSA’s core mission
and were not as relevant as other measures for reporting in the performance section of
the Performance and Accountability Report (PAR).

In its Strategic Plan Fiscal Years 2008-2013, SSA discusses Encouraging Saving
separately from its strategic goals and objectives and identifies it as a special initiative. 9
SSA believes that “Due to our existing relationship with the public and the nature of our
work, Social Security is uniquely positioned to encourage saving. We believe the
agency has a responsibility to help individuals understand the role of Social Security
benefits and the need for them to save as they plan for their future. Consequently, to
ensure Americans of every age understand the importance of preparing for retirement,
we will expand our outreach efforts to encourage saving.” 10 As a result, Encouraging
Saving is not a necessary activity in support of program administration; rather, it is an
ancillary endeavor in which SSA wishes to engage because the message of
Encouraging Saving is important for the general public as they prepare for retirement.

8
    SSA’s Strategic Plan Fiscal Years 2008-2013, pg. 29.
9
    SSA’s Strategic Plan Fiscal Years 2008-2013; http://www.ssa.gov/asp/index.htm, pg. 28.
10
     Id.

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                         8
While this is an important initiative because of its relationship to retirement, any PI
related to it would not be an effective measure of a SSA key program. See Table 2 for
alignment of SSA’s PIs and key activities.

                                  Table 2: Alignment of Key Activities and PIs


                                                                                                                                                          KEY ACTIVITY




                                                                                                                                                                                                                                                                                         Fraud, Waste and Abuse
                                                                                                                                                                                                                        Information Technology
                                         800 Number Telephone




                                                                                                                                                                                                                                                                                          Protect Program from
                                                                                                                       Earnings Processing




                                                                                                                                                                                                                                                                                                                      Use Green Solutions
                                                                                                                                                                Encouraging Saving
                                                                                                                                             Employees (Human




                                                                                                                                                                                                                                                 Policy Updates and
                                                                Claims Processing




                                                                                                                                                                                                   Health Information
                                                                                                    Customer Service




                                                                                                                                                                                                                                                                      Post-Entitlement
                                                                                    Curb Improper




                                                                                                                                                                                                                                                   Improvements
                                                                                                                                                                                     Enumeration


                                                                                                                                                                                                      Technology
                                                                                      Payments




                                                                                                                                                  Capital)
                                               Service

PI#                  PI




 PI       Complete the budgeted
                                                                    X                                 X
1.1a   number of hearing requests
 PI     Achieve the target number
                                                                    X                                 X
1.2a   of hearing requests pending
           Achieve the target to
 PI
       eliminate the oldest hearing                                 X                                 X
1.2b
             requests pending
        Achieve the budgeted goal
 PI
       for average processing time                                  X                                 X
1.2c
           for hearing requests
           Achieve the target to
 PI    eliminate the oldest Appeals
                                                                    X                                 X
1.2d    Council requests for review
                   pending
        Achieve the target average
 PI
       processing time for Appeals                                  X                                 X
1.2d
       Council requests for review.
             Achieve the target
 PI         percentage of initial
                                                                    X                                 X
2.1a   disability cases identified as
              a QDD or a CAL
          Complete the budgeted
 PI
         number of initial disability                               X
2.1b
                    claims
             Minimize average
 PI      processing time for initial
                                                                    X                                 X
2.1c    disability claims to provide
              timely decisions
             Achieve the target
 PI
            percentage of initial                                   X                                 X
2.2a
        disability claims filed online
 PI    Update the Medical Listings
                                                                    X                                                                                                                                                                              X
2.3a           of Impairments
        Increase the percentage of
 PI     disability claims completed
                                                                    X                                 X                                                                                               X                                            X
2.3b     using Health Information
                 Technology
         Percent of retirement and
 PI      survivors claims receipts
                                                                    X
3.1a        completed up to the
               budgeted level
             Achieve the target
 PI
         percentage of retirement                                   X                                 X
3.1b
             claims filed online




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                                                                                                                                                                                                              9
                                                                                                                                                         KEY ACTIVITY




                                                                                                                                                                                                                                                                                        Fraud, Waste and Abuse
                                                                                                                                                                                                                       Information Technology
                                        800 Number Telephone




                                                                                                                                                                                                                                                                                         Protect Program from
                                                                                                                      Earnings Processing




                                                                                                                                                                                                                                                                                                                  Use Green Solutions
                                                                                                                                                               Encouraging Saving
                                                                                                                                            Employees (Human




                                                                                                                                                                                                                                                Policy Updates and
                                                               Claims Processing




                                                                                                                                                                                                  Health Information
                                                                                                   Customer Service




                                                                                                                                                                                                                                                                     Post-Entitlement
                                                                                   Curb Improper




                                                                                                                                                                                                                                                  Improvements
                                                                                                                                                                                    Enumeration


                                                                                                                                                                                                     Technology
                                                                                     Payments




                                                                                                                                                 Capital)
                                              Service
PI#                 PI




       Achieve the target speed in
 PI
          answering National 800           X                                                         X
3.3a
                Number calls
       Achieve the target busy rate
 PI
         for National 800 Number           X                                                         X
3.3b
                     calls
        Percent of individuals who
       do business with SSA rating
 PI
           the overall services as         X                       X                                 X                                                                                                                                                                 X
3.4a
        “excellent,” “very good,” or
                    “good”
              Achieve the target
 PI       percentage for correctly
                                                                                                                                                                                     X                                                                                                            X
3.5a      assigning original social
              security numbers
          Complete the budgeted
 PI      number of Supplemental
                                                                                     X                                                                                                                                                                                 X                          X
4.1a        Security Income non-
        disability redeterminations
           Process the budgeted
 PI
            number of continuing                                                     X                                                                                                                                                                                 X                          X
4.1b
              disability reviews
         Percent of Supplemental
        Security Income payments
 PI
        free of overpayment (O/P)                                                    X                                                                                                                                                                                 X                          X
4.1c
         and underpayment (U/P)
                     error
             Percent of Old-Age,
          Survivors, and Disability
 PI
       Insurance payments free of          X                                         X                                                                                                                                                                                 X                          X
4.1d
          overpayment (O/P) and
        underpayment (U/P) error
              Reduce the target
 PI
        percentage of paper forms                                                                                       X
4.3a
               W-2 completed
       Receive an unqualified audit
 PI
        opinion on SSA’s financial
4.5a
                 statements
        Replace gasoline-powered
 PI
       vehicles with alternative-fuel                                                                                                                                                                                                                                                                               X
4.6a
                  vehicles
        Develop and implement an
 PI
           agency Environmental                                                                                                                                                                                                                                                                                     X
4.6b
            Management System




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                                                                                                                                                                                                             10
Alignment of SSA’s Strategic Goals and Objectives and PIs

We reviewed SSA’s APP for FY 2011 and Revised Final Performance Plan for FY 2010
and noted that it had aligned each of its 27 PIs under its 4 strategic goals and 16
strategic objectives. However, we noted that there were three strategic objectives that
did not have an associated PI.

•   Strategic Objective 3.2 – Provide individuals with accurate, clear, up-to-date
    information
•   Strategic Objective 4.2 – Ensure privacy and security of personal information
•   Strategic Objective 4.4 – Simplify and streamline how we do our work

The absence of PIs for these objectives is noticeable in light of their inclusion in the
Agency’s strategic plan and their presumed importance to effectively and efficiently
carrying out SSA’s mission.

In addition, we determined whether each PI was an effective means of tracking SSA’s
progress in achieving its strategic goals and objectives. Based on our assessment, we
noted that 16 PIs were ineffective measures of the Agency’s progress in achieving its
strategic goals and objectives.

See Table 3 for a summary of SSA’s FY 2010 PIs and our assessment of whether we
believe the indicators are effective measures of the strategic goals and objectives. The
Comment section of the table presents the reasons for our conclusions if, in our opinion,
the indicator is not an effective measure.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                       11
            Table 3: Alignment of SSA’s Strategic Goals and Objectives and PIs



Strategic
                               PI Supports     PI Supports
 Goal #/    Strategic Goal /
                               Achievement     Achievement
Strategic      Strategic                                                             Comment
                                of Strategic    of Strategic
Objective    Objective/PI
                                   Goal?        Objective?
 #/ PI #



 Goal 1                          Eliminate Hearings Backlog and Prevent Its Recurrence

Objective   Increase Capacity to Hear and Decide Cases
  1.1
 PI 1.1a     Complete the           N               N          The PI determines whether SSA has completed its
               budgeted                                        budgeted number of hearing requests rather than
               number of                                       determining whether SSA has completed more
            hearing requests                                   hearing requests than requests received, thereby
                                                               reducing its backlog.

                                                               Every year, SSA establishes its target for this PI to
                                                               reflect the number of hearings it expects to complete
                                                               based on its budget. Over the past 6 years, SSA has
                                                               increased its target from 525,000 in FY 2005 to
                                                               725,000 in FY 2010. While it appears SSA has
                                                               increased its capacity to hear and decide cases
                                                               because of its increasing targets, the PI does not
                                                               measure how effective those efforts are because it
                                                               does not consider the number of hearings completed
                                                               in comparison to the number of outstanding hearing
                                                               requests.
Objective     Improve Workload Management Practices
  1.2             Throughout the Hearing Process
 PI 1.2a       Achieve the          Y               N          In its Strategic Plan Fiscal Years 2008 – 2013, SSA
            target number of                                   set a long-term outcome to reduce hearings pending
            hearing requests                                   to 466,000 by FY 2013. However, rather than
                pending                                        establishing its target based on the long-term
                                                               outcome, SSA established its target to reflect the
                                                               number of hearings pending it expects based on its
                                                               budget. Over the past 5 years, SSA increased its
                                                               target of hearings pending from 714,000 in FY 2005 to
                                                               755,000 in FY 2009. In FY 2010, SSA reduced its
                                                               target to 707,000. While it appears that SSA
                                                               considered its improvements in workload practices,
                                                               the PI does not measure how effective those efforts
                                                               are because the target keeps changing and is
                                                               appreciably higher than the long-term outcome of
                                                               466,000. In addition, the target does not assess how
                                                               well SSA is meeting its long-term outcome.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                            12
Strategic
                                     PI Supports     PI Supports
 Goal #/     Strategic Goal /
                                     Achievement     Achievement
Strategic       Strategic                                                                   Comment
                                      of Strategic    of Strategic
Objective     Objective/PI
                                         Goal?        Objective?
 #/ PI #



 PI 1.2b      Achieve the                 Y               N          In 2007, SSA implemented its Hearings Backlog
                 target to                                           Reduction Plan. This PI is a result of SSA’s plan to
              eliminate the                                          reduce its backlog by focusing on eliminating its oldest
             oldest hearing                                          hearing requests pending. However, the PI results
                 requests                                            are not based on improved workload management
                 pending                                             practices included in its APP for FY 2011and Revised
                                                                     Final Performance Plan for FY2010, such as
                                                                     streamlining and automating case tasks, eliminating
                                                                     the use of temporary hearing sites or establishing
                                                                     standardized electronic hearings business process.
                                                                     Rather, it is the result of focusing resources to
                                                                     eliminate the oldest hearings.

 PI 1.2d      Achieve the                 N               N          The PI evaluates SSA’s performance in relation to
                 target to                                           disability Appeals Council requests. It does not
              eliminate the                                          measure SSA’s performance related to the Hearings
             oldest Appeals                                          backlog or related workload management practices.
            Council requests
                for review
                 pending
 PI 1.2e       Achieve the                N               N          The PI evaluates SSA’s performance in relation to
             target average                                          disability Appeals Council requests. It does not
            processing time                                          measure SSA’s performance related to the Hearings
               for Appeals                                           backlog or related workload management practices.
            Council requests
                for review
 Goal 2                                  Improve the Speed and Quality of Disability Process

Objective       Fast-Track Cases That Obviously Meet
  2.1                    Disability Standards
 PI 2.1a        Achieve the               N               N          The PI evaluates the percent of initial disability cases
            target percentage                                        identified as QDD or CAL. However, the PI does not
             of initial disability                                   measure whether the cases identified as QDD or CAL
              cases identified                                       were expedited (fast-tracked) and processed within 20
              as a QDD or a                                          days as required by its policy. Consequently, the
                     CAL                                             indicator does not measure SSA’s progress in
                                                                     improving the speed and quality of the disability
                                                                     process or actually fast-tracking cases.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                    13
Strategic
                                  PI Supports     PI Supports
 Goal #/     Strategic Goal /
                                  Achievement     Achievement
Strategic       Strategic                                                                Comment
                                   of Strategic    of Strategic
Objective     Objective/PI
                                      Goal?        Objective?
 #/ PI #



 PI 2.1b     Complete the              N               N          Regardless of the number of initial disability claims
               budgeted                                           actually received, the PI evaluates the Agency’s
            number of initial                                     performance based on the budgeted number of initial
            disability claims                                     disability claims to be processed in a fiscal year. Over
                                                                  the past 4 years, SSA has increased its target of
                                                                  2,530,000 in FY 2007 to 3,081,000 in FY 2010. While
                                                                  it appears SSA has improved its speed and quality of
                                                                  its disability process because of the increasing
                                                                  targets, the PI does not measure how effective those
                                                                  efforts are because it does not consider the number of
                                                                  claims completed in comparison to the number of
                                                                  claims received. In addition, as this PI evaluates all
                                                                  initial disability claims, it does not measure whether
                                                                  cases have been fast-tracked.

 PI 2.1c        Minimize               N               N          The PI evaluates SSA’s progress toward reducing the
                 average                                          processing time of an initial disability claim, which
            processing time                                       appears to support SSA’s strategic goal. However,
                 for initial                                      SSA has increased its target processing time from 107
             disability claims                                    days in FY 2008 to 132 days in FY 2010, contrary to
            to provide timely                                     its stated goal. In addition, as this PI evaluates all
                decisions                                         initial disability claims, it does not evaluate whether
                                                                  cases have been fast-tracked.

Objective   Make It Easier and Faster to File for Disability
  2.2                      Benefits Online
 PI 2.2a       Achieve the             Y               Y          None
                   target
              percentage of
             initial disability
               claims filed
                   online
 PI 2.2b       Achieve the             N               N          The PI evaluates whether SSA has achieved its target
            target number of                                      number of disability claims pending. However, SSA’s
             initial disability                                   historical performance related to this PI has shown a
             claims pending                                       steady increase in its target from 555,317 in FY 2007
                                                                  to 1,041,000 in FY 2010. While it appears that there
                                                                  is a correlation between the increasing targets and its
                                                                  goal, the PI does not consider the number of disability
                                                                  claims pending in comparison to the number of
                                                                  disability claims received. In addition, the PI does not
                                                                  evaluate any aspect of filing disability claims online.

Objective       Regularly Update Disability Policies and
  2.3                        Procedures
 PI 2.3a      Update the               N               N          The target for achievement of this PI is to develop and
            Medical Listings                                      submit at least three regulatory actions or Social
            of Impairments                                        Security Rulings (SSR). The target does not correlate
                                                                  with the PI since the medical Listing of Impairments is
                                                                  not actually updated when the target is achieved. The
                                                                  submission of three regulatory actions or SSRs is only

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                 14
Strategic
                                PI Supports     PI Supports
 Goal #/    Strategic Goal /
                                Achievement     Achievement
Strategic      Strategic                                                               Comment
                                 of Strategic    of Strategic
Objective    Objective/PI
                                    Goal?        Objective?
 #/ PI #


                                                                one step in the process for updating the Listing of
                                                                Impairments. In addition, because the medical Listing
                                                                of Impairments is not updated, the PI does not
                                                                evaluate the speed and quality of the disability
                                                                process.

 PI 2.3b      Increase the           Y               Y          None
             percentage of
            disability claims
            completed using
                  Health
               Information
               Technology
 Goal 3                                   Improve Retiree and Other Core Services

Objective    Dramatically Increase Baby Boomers' Use of
  3.1                 Online Retirement Resources
 PI 3.1a        Percent of           N            N             Every year, SSA establishes a target of 100 percent
             retirement and                                     based on its budget, and every year since 2007, SSA
            survivors claims                                    has exceeded its target. At face value, it would
                 receipts                                       appear that SSA is performing well relative to its goal.
            completed up to                                     However, since the PI only evaluates SSA’s
              the budgeted                                      performance in comparison with its budget, it does not
                   level                                        provide a complete evaluation of its performance
                                                                compared to actual claims received.

                                                                The data reported for the PI includes the number of
                                                                retirement, survivors, and health insurance claims
                                                                processed. It also includes all claims submitted, not
                                                                just claims submitted on-line and includes claims
                                                                submitted that are unrelated to baby boomers
                                                                (survivors).
 PI 3.1b      Achieve the            Y               Y          None
                 target
             percentage of
               retirement
              claims filed
                 online
Objective
                      Improve telephone service
  3.3
 PI 3.3a        Achieve the          Y               Y          None
              target speed in
                 answering
               National 800-
               Number calls
 PI 3.3b        Achieve the          Y               Y          None
             target busy rate
            for National 800-
               Number calls
Objective     Improve Service For Individuals Who Visit
  3.4                       Field Offices


SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                               15
Strategic
                                PI Supports     PI Supports
 Goal #/    Strategic Goal /
                                Achievement     Achievement
Strategic      Strategic                                                               Comment
                                 of Strategic    of Strategic
Objective    Objective/PI
                                    Goal?        Objective?
 #/ PI #



 PI 3.4a        Percent of           Y               N          The PI evaluates SSA’s overall services: National
             individuals who                                    800-Number, field offices, hearing offices, as well as
            do business with                                    quality of service, while the strategic objective is
              SSA rating the                                    related to field offices.
            overall services
              as “excellent,”
              “very good,” or
                  “good”
Objective    Process Social Security Number Workload
  3.5             More Effectively and Efficiently
 PI 3.5a      Achieve the            N               Y          The SSN is at the core of everything SSA does as an
                 target                                         organization because (1) a SSN is needed for an
             percentage for                                     individual to receive Social Security benefits and
                correctly                                       (2) the SSN is the unique identifier that SSA uses for
               assigning                                        most – if not all – of its records. While the PI is
             original social                                    relevant to the organization, it does not actually
                security                                        measure whether retiree or other core services have
                numbers                                         improved.

                                                            While the PI is an effective measure of the strategic
                                                            objective, we noted that, since 2006, the target has
                                                            been less than 100 percent. Over the past 4 years,
                                                            SSA’s actual performance has been at least
                                                            97.9 percent, with 1 year being 99.9 percent. SSA
                                                            should demonstrate that it strives to have zero errors
                                                            and then let the actual performance from year-to-year
                                                            demonstrate how the Agency is making progress
                                                            toward that end.
 Goal 4                                    Preserve the Public's Trust in Programs
Objective
                       Curb Improper Payments
  4.1
 PI 4.1a      Complete the           Y               Y          None
                budgeted
               number of
              Supplemental
            Security Income
              non-disability
            redeterminations
 PI 4.1b      Process the            Y               Y          None
               budgeted
               number of
               continuing
                disability
                reviews
 PI 4.1c       Percent of            Y               Y          None
             Supplemental
            Security Income
            payments free of
              overpayment
               (O/P) and
             underpayment

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                               16
Strategic
                                PI Supports     PI Supports
 Goal #/    Strategic Goal /
                                Achievement     Achievement
Strategic      Strategic                                                               Comment
                                 of Strategic    of Strategic
Objective    Objective/PI
                                    Goal?        Objective?
 #/ PI #


              (U/P) error

 PI 4.1d     Percent of Old-         Y               Y          None
             Age, Survivors
              and Disability
               Insurance
            payments free of
              overpayment
                (O/P) and
             underpayment
               (U/P) error
Objective
                 Maintain accurate earnings records
  4.3
 PI 4.3a      Reduce the             Y               Y          None
                 target
             percentage of
            paper Forms W-
              2 completed
Objective    Protect Programs From Waste, Fraud, and
  4.5                        Abuse
 PI 4.5a      Receive an             N               N          In accordance with Chapter 4, Field Work Standards
            unqualified audit                                   for Financial Audits, section 4.01b, of the Generally
               opinion on                                       Accepted Government Accounting Standards, issued
             SSA’s financial                                    by GAO and required to be followed for all Federal
              statements                                        audits (also known as the Yellow Book), the high, but
                                                                not absolute, level of assurance that is intended to be
                                                                obtained by auditors is expressed in the auditor’s
                                                                report as obtaining reasonable assurance about
                                                                whether the financial statements are free of material
                                                                misstatement (whether caused by error or fraud).
                                                                Absolute assurance is not attainable because of the
                                                                nature of audit evidence and the characteristics of
                                                                fraud. Therefore, it is possible that significant, though
                                                                not material, fraudulent activities could remain
                                                                undetected during an audit, and an entity could still
                                                                receive an unqualified opinion on its financial
                                                                statements. Furthermore, the PI does not measure or
                                                                assess the relevant outputs, service levels, and
                                                                outcomes of SSA’s key programs. As a result, the PI
                                                                does not provide a basis for evaluating whether SSA
                                                                has achieved its goal.

                                                                Financial statement audits do not serve to address
                                                                needless expenditures (waste) or poor management
                                                                practices (abuse). Hypothetically speaking, if
                                                                management approved a needless expenditure or
                                                                mismanaged its budget authority (without exceeding
                                                                that authority), financial statement audit evidence
                                                                would not necessarily disclose these matters.
                                                                Financial statement audits seek to uncover
                                                                misstatements in an entity’s financial statements that
                                                                would be of significance and that would mislead the


SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                17
Strategic
                                  PI Supports     PI Supports
 Goal #/       Strategic Goal /
                                  Achievement     Achievement
Strategic         Strategic                                                             Comment
                                   of Strategic    of Strategic
Objective       Objective/PI
                                      Goal?        Objective?
 #/ PI #


                                                                  readers of those financial statements. Financial
                                                                  statement audits do not specifically work to address
                                                                  challenges faced in the administration of that entity.
                                                                  While financial statement audits may uncover
                                                                  problems that relate to certain programs or
                                                                  departments within an entity, they do not show how an
                                                                  entity is making progress toward achieving its
                                                                  organizational/operational goals.
Objective            Use “Green” Solutions to Improve
  4.6                         Environment
    PI 4.6a        Replace             N               Y          Without questioning the importance of protecting our
                  gasoline-                                       nation’s environment, the PI does not measure
                   powered                                        progress toward the administration of SSA’s key
                vehicles with                                     programs.
               alternative-fuel
                   vehicles
    PI 4.6b     Develop and            N               Y          Without questioning the importance of protecting our
               implement an                                       nation’s environment, the PI does not measure
                  agency                                          progress toward the administration of SSA’s key
               Environmental                                      programs.
               Management
                  System



Objectivity, Understandability and Measurement Basis

Section 4 of GPRA requires that agencies create PIs that are in “. . . an objective,
quantifiable, and measurable form” and that those PIs are “. . . used in measuring or
assessing the relevant outputs, service levels, and outcomes of each program
activity.” 11 In addition, the President’s FY 2011 budget encourages the use of
outcome-oriented PIs.

As such, KPMG evaluated each of the Agency’s 27 FY 2010 PIs against the criteria of
objectivity, understandability (which speaks to whether a PI is quantifiable, measurable,
and written in a straightforward manner), and measurement basis (that is, output- or
outcome-based as defined by GPRA). The definitions of each of these criteria are as
follows.

•     Objectivity – The PI should be reasonably free of any significant bias or
      manipulation that would distort the accurate assessment of performance, that is,
      measurable, reliable, and verifiable.
•     Understandability - The PI should be well-defined and clearly stated.


     31 U.S.C. § 1115(a)(4).
11



SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                               18
•   Output-based – The PI tabulates, calculates, or records activity or effort in a
    quantitative or qualitative manner, that is, measures the services delivered by a
    program.
•   Outcome-based – The PI reflects the results of a program activity compared to its
    intended purpose.
We evaluated SSA’s PIs to determine whether they met our criteria for being objective,
understandable, and outcome-based. Based on our criteria, 23 of 27 measures were
objective,; 23 were understandable, and 12 were outcome –based. The following tables
summarize the results of our evaluation of the FY 2010 PIs as they relate to the criteria
of objectivity, understandability, and measurement.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                    19
             Table 4: Summary of Objective, Understandable, Output vs. Outcome

     Strategic Goal 1: Eliminate Hearings Backlog and Prevent Its Recurrence

                                                         Output/Outcome
Strategic Objective/ PI   Objective?   Understandable?                                 Comment
                                                             Based?


   Objective 1.1                            Increase Capacity to Hear and Decide Cases
      PI 1.1a
   Complete the                                                           SSA should consider developing an
 budgeted number              Y              Y              Output        outcome-based indicator, see
of hearing requests                                                       recommendations for suggested PI.

    Objective 1.2          Improve Workload Management Practices Throughout the Hearing Process
        PI 1.2a
                                                                          SSA should consider developing an
 Achieve the target
                              Y              Y              Output        outcome-based indicator, see
 number of hearing
                                                                          recommendations for suggested PI.
 requests pending
        PI 1.2b
 Achieve the target                                                       SSA should consider developing an
   to eliminate the           Y              Y              Output        outcome-based indicator, see
    oldest hearing                                                        recommendations for suggested PI.
 requests pending
        PI 1.2c
      Achieve the
                                                                          SSA should consider developing an
 budgeted goal for
                              Y              Y              Output        outcome-based indicator, see
average processing
                                                                          recommendations for suggested PI.
   time for hearing
       requests
        PI 1.2d
 Achieve the target
                                                                          SSA should consider developing an
   to eliminate the
                              Y              Y              Output        outcome-based indicator, see
    oldest Appeals
                                                                          recommendations for suggested PI.
Council requests for
   review pending
        PI 1.2e
 Achieve the target
                                                                          SSA should consider developing an
average processing
                              Y              Y              Output        outcome-based indicator, see
  time for Appeals
                                                                          recommendations for suggested PI.
Council requests for
        review




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                    20
       Strategic Goal 2: Improve the Speed and Quality of Disability Process

                                                         Output/Outcome
Strategic Objective/ PI   Objective?   Understandable?                                  Comment
                                                             Based?



   Objective 2.1                   Fast-Track Cases That Obviously Meet Disability Standards

                                                                          Objective
                                                                          The PI only tracks the percentage
                                                                          of initial disability claims identified
                                                                          as QDD or CAL during the last
                                                                          month of the FY, September
                                                                          2010. When an initial disability
                                                                          claim is identified as a QDD or
                                                                          CAL, it is fast-tracked for
                                                                          expedited processing. SSA
                                                                          establishes different thresholds
                                                                          for each disability determination
    Indicator 2.1a
                                                                          services (DDS) to identify the
 Achieve the target
                                                                          score required for each initial
percentage of initial
                                                                          disability claim to qualify for QDD.
   disability cases           N              Y              Output
                                                                          As a result, a claim may qualify
identified as a QDD
                                                                          for fast-tracking at one DDS and
or a Compassionate
                                                                          not qualify at another, despite the
      Allowance
                                                                          claim having similar conditions.
                                                                          The use of different thresholds at
                                                                          each DDS results in a biased
                                                                          process for identifying QDD
                                                                          claims that causes reporting
                                                                          inconsistencies.

                                                                          SSA should consider developing
                                                                          an outcome-based indicator, see
                                                                          recommendations for suggested
                                                                          indicator.
    Indicator 2.1b
                                                                          SSA should consider developing
    Complete the
                                                                          an outcome-based indicator, see
budgeted number of            Y              Y              Output
                                                                          recommendations for suggested
   initial disability
                                                                          indicator.
         claims
    Indicator 2.1c
 Minimize average                                                         SSA should consider developing
processing time for                                                       an outcome-based indicator, see
                              Y              Y              Output
   initial disability                                                     recommendations for suggested
 claims to provide                                                        indicator.
  timely decisions




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                         21
       Objective 2.2             Make It Easier and Faster to File for Disability Benefits Online

                                                                    Objective
                                                                    The PI is based on the number of
                                                                    initial disability claims filed on-line
                                                                    in relation to the total number of
                                                                    claims that could be filed online in
                                                                    the current FY. However, SSI
                                                                    initial disability claims cannot be
                                                                    filed online at this time. The
                                                                    indicator does not account for SSI
                                                                    initial disability claims when
                                                                    calculating the indicator. As a
                                                                    result, the percentage of initial
                                                                    disability claims filed online is
                                                                    artificially inflated.

        Indicator 2.2a                                              Understandable
     Achieve the target                                             SSA does not clearly define how
                                 N          N          Outcome      the PI is calculated. The data
    percentage of initial
disability claims filed online                                      definition states that the
                                                                    “. . . percentage is derived by
                                                                    dividing the number of initial
                                                                    Social Security disability claims
                                                                    filed online by the total number of
                                                                    initial disability claims that could
                                                                    be filed online in the current fiscal
                                                                    year.” However, SSA does not
                                                                    define the types of initial disability
                                                                    claims that can and cannot be
                                                                    filed online.

                                                                    SSA should consider developing
                                                                    an outcome-based indicator, see
                                                                    recommendations for suggested
                                                                    PI.
        Indicator 2.2b                                              SSA should consider developing
Achieve the target number                                           an outcome-based indicator, see
                                 Y          Y           Output
 of initial disability claims                                       recommendations for suggested
            pending                                                 PI.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                  22
      Objective 2.3                Regularly Update Disability Policies and Procedures
                                                                Objective
                                                                The target, “develop and submit
                                                                at least three regulatory actions or
                                                                SSRs” does not directly support
                                                                the indicator. The medical Listing
                                                                of Impairments is not updated
                                                                when the target is achieved.

                                                                Understandable
                                                                There is no correlation between
      Indicator 2.3a
                                                                the target and how the medical
Update the medical Listings   N          N             Output
                                                                Listing of Impairments is updated
     of Impairments
                                                                when the target is achieved. The
                                                                submission of three regulatory
                                                                actions or SSRs is a step in the
                                                                process towards updating the
                                                                Listing of Impairments.

                                                                SSA should consider developing
                                                                an outcome-based PI, see
                                                                recommendations for suggested
                                                                PI.
                                                                Understandable
                                                                The data definition does not
                                                                specify the types of medical
       Indicator 2.3b
                                                                evidence that are included in the
Increase the percentage of
                                                                calculation of this PI.
disability claims completed   Y          N             Output
 using Health Information
                                                                SSA should consider developing
         Technology
                                                                an outcome-based PI, see
                                                                recommendations for suggested
                                                                PI.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                           23
                 Strategic Goal 3: Improve Retiree and Other Core Services

                                                                   Output/Outcome
      Strategic Objective/ PI       Objective?   Understandable?                           Comment
                                                                       Based?


         Objective 3.1                Dramatically Increase Baby Boomers’ Use of Online Services
          Indicator 3.1a
   Percent of retirement and
    survivors claims receipts           Y              Y             Outcome        None
 completed up to the budgeted
               level
          Indicator 3.1b
Achieve the target percentage           Y              Y             Outcome        None
of retirement claims filed online
         Objective 3.2              Provide Individuals With Accurate, Clear, Up-To-Date Information
               N/A                    N/A             N/A               N/A         None
         Objective 3.3                                     Improve Telephone Service
         Indicator 3.3a
 Achieve the target speed in
                                        Y              Y             Outcome        None
    answering National 800
         Number calls
         Indicator 3.3b
 Achieve the target busy rate           Y              Y             Outcome        None
for National 800 Number calls
         Objective 3.4                       Improve Service for Individuals Who Visit Offices
         Indicator 3.4a
Percent of individuals who do
 business with SSA rating the           Y              Y             Outcome        None
overall services as “excellent,”
    “very good,” or “good”
                                     Process Social Security Number Workload More Effectively and
         Objective 3.5
                                                              Efficiently
         Indicator 3.5a
Achieve the target percentage
                                        Y              Y             Outcome        None
for correctly assigning original
   Social Security Numbers




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                 24
                  Strategic Goal 4: Preserve the Public’s Trust in Programs

                                                             Output/Outcome
   Strategic Objective/ PI   Objective?    Understandable?                           Comment
                                                                 Based?

       Objective 4.1                                    Curb Improper Payments
       Indicator 4.1a
 Complete the budgeted
number of Supplemental
                                 Y               Y             Outcome        None
  Security Income non-
          disability
     redeterminations
       Indicator 4.1b
  Process the budgeted
                                 Y               Y             Outcome        None
  number of continuing
     disability reviews
       Indicator 4.1c
Percent of Supplemental
     Security Income
                                 Y               Y             Outcome        None
     payments free of
 overpayment (O/P) and
underpayment (U/P) error
       Indicator 4.1d
   Percent of Old-Age,
 Survivors, and Disability
Insurance payments free          Y               Y             Outcome        None
  of overpayment (O/P)
and underpayment (U/P)
            error
       Objective 4.2                      Ensure Privacy and Security of Personal Information
             N/A               N/A              N/A              N/A        None
       Objective 4.3                             Maintain Accurate Earnings Records
                                                                            SSA should consider
     Indicator 4.3a
                                                                            developing an outcome-
   Reduce the target
                                 Y               Y             Output       based PI, see
  percentage of paper
                                                                            recommendations for
 Forms W-2 completed
                                                                            suggested PI.
      Objective 4.4                         Simplify and Streamline How SSA Does Its Work
           N/A                 N/A              N/A              N/A        None
      Objective 4.5                        Protect Programs From Waste, Fraud, and Abuse
      Indicator 4.5a
 Receive an unqualified
                                 Y               Y              Output
 audit opinion on SSA’s
  financial statements




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                 25
      Objective 4.6                  Use “Green” Solutions To Improve Environment
      Indicator 4.6a
Replace gasoline-powered
                              Y          Y         Outcome       None
 vehicles with alternative-
       fuel vehicles
                                                                 Objective
                                                                 The target, “provide training
                                                                 needed for implementation,” does
                                                                 not support the PI. An
                                                                 Environmental Management
                                                                 System is not implemented when
                                                                 the target is achieved.

                                                                 Understandable
                                                                 There is no correlation between
                                                                 the target and how an
                                                                 Environmental Management
                                                                 System is implemented when the
                                                                 target is achieved. The target is a
                                                                 step towards SSA implementing
      Indicator 4.6b                                             an Environmental Management
Develop and implement an                                         System .
                              N          N             Neither
  agency Environmental
  Management System
                                                                 Output or Outcome
                                                                 The PI is not outcome-based
                                                                 because an Environmental
                                                                 Management System is a
                                                                 structured framework designed to
                                                                 coordinate environmental
                                                                 initiatives in an organization. It
                                                                 does not measure the “use of
                                                                 ‘green’ solutions” as set forth in
                                                                 Strategic Objective 4.6.

                                                                 The PI is not an output-based
                                                                 measure because it does not
                                                                 record activity in either
                                                                 quantitatively or qualitatively.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                26
Other Observations
Performing to the Budget

After evaluating each PI, we noted that the performance targets selected for most of the
PIs were established primarily based on the appropriated funding that SSA was
expecting to receive in the upcoming FY rather than being based on long-term
outcomes or some other meaningful outcome. In fact, 6 of the 27 PIs explicitly state in
their wording that they want to achieve their target, which is up to the “budgeted level.”

Section 4 of GPRA states that PIs set forth in an agency’s performance plan “. . . shall
provide a basis for comparing actual program results with the established performance
goals.”
12
   Performing to the budget does not provide the required basis for comparison. For
example, SSA receives 1 million claims to process in the current year, but the current
budget is based on processing only 750,000 claims. If 750,000 claims are used as the
target and SSA processes 750,001 claims, the target has been achieved and an
impression is given that SSA is progressing toward its strategic objectives and goals.
However, in this example, that is not the case. If only 750,000 of 1 million claims
received are processed, SSA has fallen behind in its workload and has a backlog of
250,000 claims. If this trend occurs for several years, a substantial backlog will be
created, and the readers of the PAR might not be aware of it.

Rather than being budget-driven vehicles, performance targets for each PI should
represent the Agency’s long-term performance aspirations regardless of what its budget
may be. Performance targets need to represent the level of performance the Agency
should achieve to make progress toward its strategic objectives and goals, not just what
the Agency can achieve in the current fiscal year. Setting these long-term targets
demonstrates what the Agency is striving to accomplish. Not meeting a performance
target in any given year does not always represent a blemish on the Agency’s record. It
could also become the basis for requesting additional funding to meet its goals.

Because budgets are prone to significant fluctuations from year to year, tying a
performance target to an annual budget amount is ineffective. When the performance
target is based on the budget, it is difficult for the readers of the PAR to grasp the
significance of the target, and it ceases to have meaning. The reader should have an
understandable and reasonably steady long-term target against which to gauge SSA’s
performance for the current fiscal year. Ideally, the Agency should work to establish a
robust benchmarking system (where possible) – whether they are Federal or
commercial benchmarks – against which performance can be objectively judged.



12
     31 U.S.C. § 1115(a)(4).


SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                   27
Addressing Management Challenges

Per the Reports Consolidation Act of 2000 (RCA), 13 the Annual PAR must include each
OIG’s summary and assessment of the most serious management and performance
challenges facing Federal agencies as well as the agencies’ progress toward
addressing them. SSA OIG identified the following eight areas in the FY 2009 PAR as
the top management and performance challenges facing SSA.

•    Implement the American Recovery and Reinvestment Act of 2009 Effectively and
     Efficiently
•    Reduce the Hearings Backlog and Prevent its Recurrence
•    Improve the Timeliness and Quality of the Disability Process
•    Reduce Improper Payments and Increase Overpayment Recoveries
•    Improve Customer Service
•    Invest in Information Technology Infrastructure to Support Current and Future
     Workloads
•    Strengthen the Integrity and Protection of the Social Security Number
•    Improve Transparency and Accountability

Through inquiry with SSA personnel and analysis of the PI documentation in SSA’s
Revised Final Performance Plan for FY 2010 and in the FY 2009 PAR, we determined
whether SSA’s FY 2010 PIs address the management and performance challenges
identified by the OIG in SSA’s FY 2009 PAR that might assist them in managing the
challenges.

We noted that there were no PIs that could be used to manage the challenges identified
for two areas: Implement the American Recovery and Reinvestment Act of 2009
Effectively and Efficiently and Invest in Information Technology Infrastructure to Support
Current and Future Workloads. We believe SSA should develop measures to monitor
these management challenges and performance issues. However, the results of the
measures do not appear to address SSA’s core mission and are not as relevant as
other measures for reporting in the performance section of the PAR. In addition, we
recognize the importance of managing and monitoring the challenges represented by
these areas and that SSA has taken steps to address the matters of the American
Recovery and Reinvestment Act and Information Technology Infrastructure.

Charts Included in the PAR

SSA uses charts in the trend section for each indicator to show the historical trend of
the indicators and to depict the progress or lack of progress of the indicator over time.
However, as useful as the charts are, they would be more meaningful if the x-axis
started at zero to ensure SSA’s progress to-date is presented accurately. This would
enhance the presentation and understandability of SSA’s performance when compared
to other FYs.
13
     31 U.S.C. § 3516(a)(2)(B).


SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                  28
CONCLUSIONS AND RECOMMENDATIONS
Based on the results of our audit procedures performed in our assessment of SSA’s
FY 2010 PIs, we noted the following.

•   Over half of SSA’s current PIs did not measure the Agency’s progress on achieving
    its strategic goals and objectives. Many of these measures were also identified as
    output-based indicators rather than being outcome-based indicators.
    Outcome-based indicators are more effective in measuring an agency’s progress in
    achieving its strategic goals and objectives than output-based indicators.
•   A number of the performance targets was based on the amount appropriated for the
    activity rather than focusing on actual performance. As a result, users of the PAR do
    not have a complete understanding of SSA’s actual performance.
•   While SSA had defined some very specific long-term outcomes in its strategic plan,
    it is difficult for the users of the PAR to understand SSA’s progress in achieving
    those outcomes because performance targets are not tied to long-term outcomes.
•   Some PIs do not support SSA’s key programs.

Accordingly, we recommend SSA consider 26 recommendations that relate to the
following.

•   Developing more outcome-based PIs.
•   Developing performance targets based on SSA’s long-term outcomes instead of
    annual budgets.
•   Eliminating PIs that do not support SSA’s key programs.

For the specific 26 recommendations related to the PIs, please refer to Table 5, which
summarizes additional PIs and improvements to existing indicators that SSA should
consider as it develops future strategic plans and APPs.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                 29
                             Table 5: Summary of Recommendations

          Related PI                                        Recommendation
 1           1.1a             Consider creating a PI to track the number of disability hearings processed
         Complete the         as a percentage of disability hearings requested during the FY.
      budgeted number of      Implementation of this PI would help the readers of the PAR understand
       hearing requests       how process modifications and improvements have impacted SSA’s ability
                              to process disability hearing requests received during the current FY.

 2           1.2a             Consider creating a PI to track the number of disability hearing requests
       Achieve the target     pending as compared to the “long-term outcome” associated with this PI to
       number of hearing      “. . . reduce the number of pending hearings to 466,000 by FY 2013.”
       requests pending       Implementation of this PI would help demonstrate the progress SSA has
                              made toward achieving its desired long-term outcome.



 3             1.2c           Consider establishing the target for this PI based on SSA’s desired
           Achieve the        long-term outcome to reduce the time it takes an individual to receive a
        budgeted goal for     hearing decision to an average of 270 days. SSA has changed its target for
       average processing     the average processing time in days for disability hearing requests each FY
         time for hearing     during the period FY 2005 through FY 2011.
            requests




 4            1.2d            Consider creating a PI to track the number of Appeals Council requests for
       Achieve the target     review processed as a percentage of Appeals Council requests for review
        to eliminate the      submitted during the FY. The implementation of this PI would help the
        oldest Appeals        readers of the PAR understand how process modifications and
      Council requests for    improvements have impacted SSA’s ability to process Appeals Council
        review pending        requests for review received during the current FY.

 5                            Consider establishing long-term outcomes for the disability appeals process
                              and present the outcomes in the APP. Base the target for the indicator on
                              the long-term outcome.

 6                            Consider changing the wording of strategic goal one to “Eliminate Hearings
                              and Appeals Council Backlog and Prevent Its Recurrence.
 7            1.2e            Consider defining the optimum processing time for Appeals Council
       Achieve the target     requests for review and track the number of pending requests against that
      average processing      target. Implementation of this recommendation would help the readers of
        time for Appeals      the PAR determine how SSA is managing its workload and preventing the
      Council requests for    recurrence of a backlog.
             review




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                 30
           Related PI                                            Recommendation
 8              2.1a            Consider creating a PI to measure and report the average processing time
        Achieve the target      for initial disability claims identified as QDD or CAL to determine whether
       percentage of initial    cases that obviously meet the disability standards are fast-tracked.
         disability cases
                                Correlate the PI target to the desired long-term outcome to ensure
       identified as a QDD
             or a CAL           individuals who are clearly disabled receive a decision within 20 calendar
                                days. The implementation of this PI would help demonstrate how SSA is
                                improving the speed and quality of the disability process to the readers of
                                the PAR.
 9                              Consider creating a PI to measure and report the percentage of initial
                                disability claims allowed, once identified as either a QDD or a CAL, in
                                relation to the number of initial disability claims received that qualify for fast
                                tracking. The implementation of this PI would help the readers of the PAR
                                determine how SSA is improving the quality of the services provided by
                                their disability determination process.
 10                             Consider reporting the percentage of initial disability claims identified as a
                                QDD or a CAL for the entire FY. SSA only reports the percentage of initial
                                disability claims identified as a QDD or CAL during the last month of the FY,
                                September 2010.
 11                             Consider separating the reporting of initial disability claims identified as a
                                QDD and those claims identified as a CAL. This will help ensure SSA is
                                properly reporting and presenting each type of claim.
 12             2.1b            Consider creating a PI to track the number of initial disability claims
          Complete the          processed as a percentage of initial disability claims received. The
      budgeted number of        implementation of this PI would help the readers of the PAR determine how
         initial disability     SSA is managing its current initial disability claim workload.
               claims
 13             2.1c            Consider creating a PI to address the accuracy of case processing, which
       Minimize average         relates directly to the overall strategic goal of improving the speed and
      processing time for       quality of the disability process. The PI could answer the question: Are
         initial disability     initial disability determinations not only completed more timely, but has the
       claims to provide        quality of the determinations improved as a result? The public wants not
        timely decisions        only faster disability decisions, but the same or better quality of the
                                decisions themselves. Implementation of this PI would help readers of the
                                PAR determine how SSA is improving the quality of the services provided
                                by its disability determination process.
 14            2.2a             Consider creating a PI to measure the efficiency improvements resulting
       Achieve the target       from the on-line filing of disability claims, such as reduction of SSA
      percentage of initial     resources (time, money, human capital, etc.). Implementation of this PI
      disability claims filed   would help readers of the PAR determine whether SSA is using its
              online            resources efficiently.
 15                             Consider creating a PI to monitor the effectiveness of Agency initiatives that
                                encourage the use of the online application process. Implementation of this
                                PI would help readers of the PAR determine how SSA is improving the
                                speed and ease of use of its disability process.
 16           2.2b              Consider creating a PI to track the number of initial disability claims pending
       Achieve the target       as a percentage of initial disability claims received. Implementation of this
        number of initial       PI would correlate to the Agency’s strategic goal of improving the speed of
        disability claims       the disability process.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                        31
           Related PI                                       Recommendation
 17         pending           Consider establishling in the ASP when it is next updated a “long-term
                              outcome” for the number of initial disability claims pending and correlate the
                              target for this PI with the APP.
 18             2.3a          Consider eliminating the indicator from the APP because the target –
       Update the medical     “Publish eight Social Security Rulings in the Federal Register” does not
             Listings of      result in updating the listing.
            Impairments
 19             3.1a          Consider creating a PI to track the number of retirement and survivors
             Percent of       claims processed as a percent of the total retirement and survivors claims
          retirement and      received. Implementation of this PI would help readers of the PAR
         survivors claims     determine how SSA is managing its current workload.
       receipts completed
       up to the budgeted
                level
 20             3.3a          Consider creating a PI to track customer satisfaction with telephone service
        Achieve the target    and tie this measure to the PI on how quickly calls are answered (3.4a).
       speed in answering
           National 800
           Number calls
 21             3.4a          Consider developing a strategic objective that aligns with measuring SSA’s
             Percent of       overall services, not just services received in field offices.
       individuals who do
       business with SSA
         rating the overall
             services as
         “excellent,” “very
         good,” or “good”
 22             3.5a          Consider setting the target for this PI to 100 percent. Issuing SSNs
        Achieve the target    correctly is vital to the success of SSA’s mission. Setting the target at less
          percentage for      than 100 percent communicates a message that the Agency is not striving
       correctly assigning    to issue all SSNs accurately.
           original social
 23     security numbers      Consider presenting both the target percentage and performance
                              percentage at one decimal place to avoid misleading the reader by
                              reporting 100 percent (due to rounding) when there are known errors.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                     32
          Related PI                                         Recommendation
 24          4.1a              Consider eliminating PIs 4.1a – “Complete the Budgeted Number of
         Complete the          Supplement Security Income Non-Disability Redeterminations” and 4.1b –
      budgeted number of       “Process the Budgeted Number of Continuing Disability Reviews” as key
         Supplemental          PIs in its APP. They only measure whether SSA has performed
        Security Income        redeterminations or continuing disability reviews rather than focusing on the
         non-disability        outcome of those efforts. We noted that the outcomes of those efforts are
       redeterminations        reflected in PIs 4.1c – “Percent of Supplemental Income payments free of
                               overpayment and underpayments error” and 4.1d – “Percent of Old-Age,
              4.1b             Survivors, and Disability Insurance payments free of overpayment and
         Process the           underpayment error.” If SSA believes it should keep the two PIs we
      budgeted number of       recommend be eliminated because of the increasing high priority the
      continuing disability    Administration and the Congress have placed on reducing improper
            reviews            payments, we recommend that it consider revising the PIs to focus on
                               Supplemental Security Income Non-Disability redeterminations and
                               continuing disability reviews as a percentage of the potential population of
                               such redeterminations/reviews, as opposed to whether they met the
                               budgeted number.

 25    None – related to       Consider creating a PI to track the percent of unposted wage items in the
        Objective 4.3-         Earnings Suspense File account. This would help readers of the PAR
       Maintain accurate       determine how well SSA is resolving unposted wage items and maintaining
       earnings records        the accuracy of the earnings records.

 26          PI 4.5a           Consider eliminating PIs 4.5a -“Receive an unqualified audit opinion on
           Receive an          SSA’s financial statements,” 4.6a - “Replace gasoline-powered vehicles
         unqualified audit     with alternative-fuel vehicles;” and 4.6b -“Develop and implement an
        opinion on SSA’s       Environmental Management System” as key indicators reported in the APP.
      financial statements     These three indicators do not measure or assess the relevant output,
                               service levels, and outcomes of the Agency’s key program for FY 2010.
              PI 4.6a
       Replace gasoline-
        powered vehicles
       with alternative-fuel
             vehicles

            PI 4.6b
          Develop and
         implement an
            agency
         Environmental
         Management
            System




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                   33
Agency Comments

In a March 16, 2011 memorandum commenting on a draft of this report, SSA disagreed
with 21 of the recommendations, agreed to consider 4 of the recommendations, and
partially agreed to consider 1 recommendation. The full text of SSA’s comments,
together with our evaluation of the comments, can be found in Appendix C.

KPMG Response

A primary area of difference between KPMG and SSA is our call for more
outcome-based PIs. Of the 27 PIs we evaluated, 15 were output-based and 12 were
outcome-based. We agree with SSA that output-based PIs are neither prohibited nor
discouraged by OMB, and we are not implying that such indicators do not have value.
However, outcome-based indicators are more effective in measuring an agency’s
progress in achieving its strategic goals and objectives than those that are
output-based.

To the extent SSA can move to more outcome-based measurement, we believe the
expectations of the President and the Congress for performance and results
mangement would be better achieved. Outcomes more clearly correlate to results,
which is at the heart of GPRA in setting forth that PIs in an agency’s performance plan
“…. shall provide a basis for comparing actual program results with the established
performance goals. . . ” and the recently enacted GPRA Modernization Act of 2010 14 in
calling for “. . . general goals and objectives, including outcome-oriented goals, for major
functions and operations of the agency.”

As discussed earlier in this report, the President’s FY 2011 Budget clearly indicated the
need for outcome-based performance goals and PIs when it said: “Government
operates more effectively when it focuses on outcomes, when leaders set clear and
measurable goals, and when agencies use measurement to reinforce priorities,
motivate actions, and illuminate a path to improvement.” This was further reinforced by
OMB’s Associate Director for Performance and Personnel Management in a July 2010
memorandum, Performance Improvement Guidance: Management Responsibilities and
Government Performance and Results Act Documents, which in discussing the need to
make GPRA documents more useful, calls for “An agency strategic plan with a limited
number of measurable long-term outcome-focused goals and a description of the
strategies and agency plans to follow to reach performance targets related to its
goals.” 15


14
     31 U.S.C. § 1120(a)(3)(A).
15
  Memorandum for Executive Departments and Agencies (M-10-24), Performance Improvement
Guidance: Management Responsibilities and Government Performance and Results Act Documents,
Shelley Metzenbaum, OMB Associate Director for Performance and Personnel Management,
June 25, 2010.



SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                          34
In disagreeing with 21 of our recommendations and, in part, with an additional
recommendation, SSA believed that sufficient information was being provided through
the existing PIs. As stated earlier in our report, SSA continues to make great strides in
meeting GPRA’s objectives and has shown continued refinement of its PIs from
year to year. Our recommendations are targeted at further refinements to create more
outcome-oriented PIs that more closely tie to SSA’s long-term performance goals.

In its comments, SSA also took the position that KPMG incorrectly stated that SSA
should develop performance targets without regard to the budget. As discussed above,
our point has a much different context. Our concern is that by establishing a number of
the PIs based exclusively on the amount appropriated to SSA, the focus is on the output
and not on the outcome against the long-term goal. As discussed earlier in this report,
rather than being budget-driven vehicles, performance targets for each PI should
represent the long-term performance aspirations regardless of the budget. Not meeting
a performance target in any given year does not necessarily represent a blemish on an
agency’s performance. For example, if SSA successfully completed the number of
hearings budgeted for but did not reduce the backlog, the question “why not” could be
asked. The answer could be the need for additional resources and/or changes to
process and systems.

SSA also commented on our observation that 3 of its 27 PIs did not support key
programs by stating that OMB does not prescribe that all PIs must support key
programs and that there is no requirement that every PI must support key programs.
SSA stated that GPRA broadly defines a program to include “…. any organized set of
activities directed toward a common purpose or goal that an agency undertakes. The
term may describe an agency’s mission, functions, activities, services, projects, and
processes, and is defined as an organized set of activities directed toward a common
purpose or goal that an entity undertakes or proposes to carry out its responsibilities.”
SSA agreed to eliminate one of the three PIs but disagreed with respect to the other
two.

We do not disagree with SSA’s observation that GPRA broadly defines a program. At
the same time, while we do not question the importance of protecting our nation’s
environment, the two PIs “replacing gasoline-powered vehicles with alternative-fuel
vehicles” and “develop and implement an Environmental Management System” do not
measure progress toward the administration of SSA’s “major functions and operations,”
which is the focus of GPRA and the GPRA Modernization Act of 2010. Therefore, we
recommended that SSA consider eliminating these PIs and instead focus on those PIs
that better measure results related to SSA’s major programs and operations. However,
given their importance as a national priority, we have modified our recommendation to
SSA to consider whether to keep tracking these two PIs as secondary measures.

The full text of the detailed comments received from SSA, together with our evaluation,
are included in Appendix C.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                    35
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments and KPMG Response




SSA’s FY 2010 Performance Indicators (A-02-10-11076)
                                                                 Appendix A
Acronyms
APP             Annual Performance Plan

CAL             Compassionate Allowance

DDS             Disability Determination Services

DI              Disability Insurance

FY              Fiscal Year

GAO             Government Accountability Office

GPRA            Government Performance and Results Act of 1993

OASI            Old-Age and Survivors Insurance

OIG             Office of the Inspector General

OMB             Office of Management and Budget

O/P             Overpayment

PAR             Performance and Accountability Report

PI              Performance Indicator

Pub. L. No.     Public Law Number

QDD             Quick Disability Determination

RCA             Reports Consolidation Act of 2000

SSA             Social Security Administration

SSI             Supplemental Security Income

SSN             Social Security Number

SSR             Social Security Ruling

U.S.C.          United States Code

U/P             Underpayment




SSA’s FY 2010 Performance Indicators (A-02-10-11076)
                                                                        Appendix B
Scope and Methodology
We obtained an understanding of the Social Security Administration’s (SSA) Fiscal Year
(FY) 2010 performance indicators (PI) through research and by interviewing key SSA
personnel responsible for PIs.

We performed the following.

•   Reviewed the Annual Performance Plan for FY 2011 and Revised Final Performance
    Plan for 2010 to obtain an understanding of the FY 2010 PIs.
•   Reviewed the Strategic Plan Fiscal Years 2008-2013—which sets forth and defines
    SSA’s strategic goals and objectives.
•   Reviewed prior Office of the Inspector General and Government Accountability Office
    reports related to SSA’s PIs.
•   Reviewed applicable Federal laws and regulations.
•   Assessed SSA’s 27 PIs and aligned them to 3 key programs and 14 activities critical
    to SSA's delivery of its day-to-day services and achievement of its 4 strategic goals.
    We determined the reasonableness of the relationships between the PIs and the
    Agency’s key activities and key programs based on the scope of each PI.
•   Determined whether the 27 PIs measured the achievement of identified strategic
    goals and objectives.
•   Reviewed relevant Office of Management and Budget and Government Accountability
    Office guidance to develop criteria for defining objective, understandable, and
    outcome-based PIs.
•   Reviewed each of the 27 PIs to determine whether the individual indicators met the
    established criteria for being objective, understandable, and outcome-based.
•   Reviewed the Office of the Inspector General’s FY 2009 Statement on SSA’s Major
    Management and Performance Challenges to determine whether the issues identified
    had adequate PI coverage.
•   Identified opportunities for new performance measures to assist SSA in increasing its
    focus on program results.

As part of this assessment, we documented our understanding, as conveyed to us by
Agency personnel, of the alignment of the Agency’s mission, goals, objectives,
processes, and related PIs. Our understanding of the Agency’s mission, goals,
objectives, and processes was used to determine whether the PI appeared to be valid
and appropriate.

This audit was completed between November 2009 and March 2010. The entity
audited was the SSA Office of Vision and Strategy, a component of the Office of the

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                   B-1
Chief Information Officer. We conducted our performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We obtained comments on a draft of this report from SSA on March 16, 2011 and have
considered these comments in finalizing this report.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                             B-2
                                                                      Appendix C
Agency Comments and KPMG Response

The following is the official comment memorandum, dated March 16, 2011, from the
Social Security Administration (SSA), which includes the Agency’s overall comments on
our draft report and detailed comments on our recommendations. Following SSA’s
official comments is our evaluation of the comments, which is keyed to specific points in
the memorandum.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                               C-1
                                         SOCIAL SECURITY


MEMORANDUM


Date:      March 16, 2011                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Assessment
           of SSA's FY 2010 Performance Indicators" (A-02-10-11076)--INFORMATION


           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if I may be of any assistance. You may direct staff inquiries to
           Chris Molander, at extension 57401.

           Attachment:
           SSA Response




           SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                       C-2
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: ASSESSMENT OF SSA'S FISCAL
YEAR 2010 PERFORMANCE INDICATORS” (A-02-10-11076)

Thank you for the opportunity to review the subject report. We offer the following comments
and responses to your recommendations.

COMMENTS ON CONCLUSIONS AND RECOMMENDATIONS

First bullet

“Over half of SSA’s current PIs do not measure the Agency’s progress on achieving its strategic
goals and objectives. Many of these measures were also identified as output-based indicators
rather than being outcome-based indicators. Outcome-based indicators are more effective in
measuring an agency’s progress in achieving its strategic goals and objectives than output-based
indicators.”

Comment

Our Performance Indicators (PI) measures our progress in achieving strategic goals and
objectives. We align PIs under each of our four major goals, and there is a direct correlation
between each one. For example, you cite PI 1.1a, Complete the Budgeted Number of Hearings
Requests, as being an ineffective measure of strategic goals and objectives. We disagree. As we
report in our Performance and Accountability Report (PAR), we exceeded our fiscal year (FY)
2010 target and completed more hearings than at any time in our history. Our efforts contributed
directly to our overall goal of eliminating the hearings backlog and preventing its recurrence.

You note that some of our twenty-seven PIs are output-based and imply that this is undesirable.
We disagree. There is no prohibition against output-based indicators, nor are they discouraged.
In fact, Office of Management and Budget (OMB) Circular A-11, Section 200, discusses output
measures and states, “while performance measures must distinguish between outcomes and
outputs, there must be a reasonable connection between them, with outputs supporting (i.e.,
leading to) outcomes in a logical fashion.” Our PIs meet this test. OMB does not prescribe a set
number for outcome measures. By your count, we have twelve outcome-based indicators -- an
appropriate number.

Second Bullet

“A number of the performance targets were based on the amount appropriated for the activity
rather than focusing on actual performance. As a result, users of the PAR do not have a
complete understanding of SSA’s actual performance.”




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                        C-3
On page 27, 3rd paragraph, you make a similar point:

“Rather than being budget-driven vehicles, performance targets for each PI should represent the
Agency’s long-term performance aspirations regardless of what its budget may be. Performance
targets need to represent the level of performance the Agency should be achieving to make
progress toward its strategic objectives and goals, not just what the Agency can achieve in the
current fiscal year.”

Comment

You incorrectly state that we should develop performance targets without regard to the budget.
OMB Circular A-11, Section 200 directs agencies to develop a performance budget and an
annual performance plan “that clearly links performance goals with costs for achieving a target
level of performance.” Performance targets present the level of service we will provide at a
given funding level, and they measure our progress towards strategic goals and objectives. For
example, the number of disability claims, retirement and survivor claims, supplemental security
income redeterminations, and continuing disability reviews that we process in a given year are
dependent on the funding we receive from Congress.

We disagree with your statement that readers of the PAR do not have an understanding of our
performance. The PAR provides a discussion section for every PI that gives the reader
information about our efforts towards meeting goals and objectives.

Third Bullet

“While SSA had defined some very specific long-term outcomes in its strategic plan, it is
difficult for the users of the PAR to understand SSA’s progress in achieving those outcomes
because performance targets are not tied to the long-term outcomes.”

Comment

We disagree. We provide appropriate context for each goal by stating our goals for the
following year. In many cases, we also discuss long-term goals. For example, in the FY 2010
PAR we discuss our long-term goal of reducing the time it takes an individual to receive a
hearing decision to an average of 270 days.

Fourth Bullet

“Some PIs do not support SSA’s key programs.”

Comment

OMB does not prescribe that all PIs must support an agency’s key programs. Twenty-four of our
PIs support key programs three do not. The three that do not support agency key programs,
support other key initiatives. For example, Executive Order (EO) 13514, Federal Leadership in


SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                          C-4
Environmental, Energy, and Economic Performance, requires Federal agencies to improve their
environmental, energy and economic performance. PI 4.6b, Develop and Implement an Agency
Environmental Management System, supports the mandates of EO 13514. While the
environmental goals do not directly support our key programs, it does support a government-
wide initiative, is therefore an appropriate PI.

Additionally, it is incorrect to define our key programs to the Old-Age Survivors Insurance,
Disability Insurance, and Supplemental Security Income program. The Government
Performance and Results Act more broadly define a “program” to include:

       “… any organized set of activities directed toward a common purpose or goal that an
       agency undertakes. The term may describe an agency’s mission, functions, activities,
       services, projects, and processes, and is defined as an organized set of activities directed
       toward a common purpose or goal that an entity undertakes or proposes to carry out its
       responsibilities.”

Fifth Bullet

“Develop more outcome-based PIs.”

Comment

Output and outcome-based indicators are both appropriate measures of performance. We have
established performance measures that represent a balance of output, outcome, and milestone
measures.

Sixth Bullet

“Develop performance targets based on SSA’s long-term outcomes instead of annual budgets.”

Comment

We developed several long-term, outcome-based performance targets not tied to the budget. For
others, we complied with OMB guidance and considered funding levels when developing
performance targets.

Seventh Bullet

“Eliminate PIs that do not support SSA’s key programs.”

Comment

There is no requirement that in every case PIs must support key programs.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                            C-5
                                    Response to Table 5: Summary of Recommendations

            Related PI                   Recommendation                                   Response
                1.1a            Consider creating a PI to track the   We disagree. This PI is a valid output measure.
        Complete the budgeted   number of disability hearings         Each year we continue to increase our capacity to
          number of hearing     processed as a percentage of          hear and decide cases. We discuss this in the FY
              requests          disability hearings requested         2010 PAR, provide historical perspective, and
                                during the FY. Implementation of      discuss the improvements we are making to our
 1                              this PI would help the readers of     processes.
                                the PAR understand how process
                                modifications and improvements
                                have impacted SSA’s ability to
                                process disability hearing requests
                                received during the current FY.
                 1.2a           Consider creating a PI to track the   We disagree. In the PAR, we state that eliminating
      Achieve the target number number of disability hearing          the hearings backlog remains our top priority. This
         of hearing requests    requests pending as compared to       PI supports our long-term goal of reducing our
               pending          the “long-term outcome” associated    pending hearings to 466,000. We determined that is
                                with this PI to “. . . reduce the     the pending level necessary to ensure a sufficient
                                number of pending hearings to         “pipeline” of cases to maximize the efficiency of our
 2
                                466,000 by FY 2013.”                  hearings process.
                                Implementation of this PI would
                                help demonstrate the progress SSA
                                has made toward achieving its
                                desired long-term outcome.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                               C-6
              Related PI                      Recommendation                                     Response
                 1.2c                Consider establishing the target      We disagree. In the PAR, we discuss our
      Achieve the budgeted goal      for this PI based on SSA’s desired    commitment to achieving the long-term goal of
        for average processing       long-term outcome to reduce the       reducing the time it takes an individual to receiving
      time for hearing requests      time it takes an individual to        a hearing decision to an average of 270 days.
                                     receive a hearing decision to an
                                     average of 270 days. SSA has
                                     changed its target for the average
                                     processing time in days for
                                     disability hearing requests each FY
                                     during the period FY 2005 through
                                     FY 2011.

                 1.2d                Consider creating a PI to track the   We disagree. This PI is a valid output measure. In
        Achieve the target to        number of Appeals Council             the PAR, we include trend data and a discussion of
        eliminate the oldest         requests for review processed as a    our performance.
      Appeals Council requests       percentage of Appeals Council
         for review pending          requests for review submitted
                                     during the FY. The
                                     implementation of this PI would
 4
                                     help the readers of the PAR
                                     understand how process
                                     modifications and improvements
                                     have impacted SSA’s ability to
                                     process Appeals Council requests
                                     for review received during the
                                     current FY.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                    C-7
              Related PI                     Recommendation                                     Response
                                     Consider establishing long-term       We disagree. We establish long-term outcomes in
                                     outcomes for the disability appeals   the Agency Strategic Plan (ASP), not the Annual
                                     process and present the outcomes      Performance Plan (APP). As stated in the FY 2010
 5
                                     in the APP. Base the target for the   PAR, we will continue to focus on eliminating the
                                     indicator on the long-term            oldest cases pending review by the Appeals Council.
                                     outcome.
                                     Consider changing the wording of      We disagree. This is an ASP goal and we cannot
                                     strategic goal one to “Eliminate      alter it until we issue a new ASP. In addition,
                                     Hearings and Appeals Council          under GPRA guidance, agencies must develop a
                                     Backlog and Prevent Its               limited number of high-level strategic goals.
 6
                                     Recurrence.                           “Eliminating Our Hearing Backlog” is high-level;
                                                                           “Appeals Council cases pending” is a subset of that
                                                                           goal.

                1.2e                 Consider defining the optimum         We disagree. In the FY 2010 PAR, we reported on
     Achieve the target average      processing time for Appeals           the record number of hearings requests processed.
        processing time for          Council requests for review and       This led to a large influx of Appeals Council
     Appeals Council requests        track the number of pending           requests. This and other factors such as staffing
             for review              requests against that target.         constraints make it difficult to define an optimum
 7                                   Implementation of this                processing time. The existing “target average
                                     recommendation would help the         processing time” is a sound measure, and the PAR
                                     readers of the PAR determine how      contains sufficient information for the reader.
                                     SSA is managing its workload and
                                     preventing the recurrence of a
                                     backlog.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                    C-8
             Related PI                       Recommendation                                    Response
                  2.1a               Consider creating a PI to measure    We disagree. We continue to refine our predictive
          Achieve the target         and report the average processing    model to identify disability cases involving medical
         percentage of initial       time for initial disability claims   conditions where a favorable disability
      disability cases identified    identified as QDD or CAL to          determination is highly likely. This PI tracks our
            as a QDD or a            determine whether cases that         performance in that area and is a valid measure.
      Compassionate Allowance        obviously meet the disability        We currently track average processing times for
                                     standards are fast-tracked.          Quick Disability Determination (QDD) and
                                     Correlate the PI target to the       Compassionate Allowance (CAL) cases (as you
 8                                   desired long-term outcome to         recommend) for internal purposes.
                                     ensure individuals who are clearly
                                     disabled receive a decision within
                                     20 calendar days. The
                                     implementation of this PI would
                                     help demonstrate how SSA is
                                     improving the speed and quality of
                                     the disability process to the
                                     readers of the PAR.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                   C-9
              Related PI                      Recommendation                                     Response
                                     Consider creating a PI to measure      We agree to consider your recommendation.
                                     and report the percentage of initial
                                     disability claims allowed, once
                                     identified as either a QDD or a
                                     CAL, in relation to the number of
                                     initial disability claims received
 9                                   that qualify for fast tracking. The
                                     implementation of this PI would
                                     help the readers of the PAR
                                     determine how SSA is improving
                                     the quality of the services provided
                                     by their disability determination
                                     process.
                                     Consider reporting the percentage      We disagree. We track this information and report
                                     of initial disability claims           it internally.
                                     identified as a QDD or a CAL for
                                     the entire FY. SSA only reports
10
                                     the percentage of initial disability
                                     claims identified as a QDD or CAL
                                     during the last month of the FY,
                                     September 2010.
                                     Consider separating the reporting      We agree to consider your recommendation.
                                     of initial disability claims
                                     identified as a QDD and those
11                                   claims identified as a CAL. This
                                     will help ensure SSA is properly
                                     reporting and presenting each type
                                     of claim.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                    C-10
           Related PI                         Recommendation                                     Response
                2.1b                 Consider creating a PI to track the    We disagree. This PI is a valid output measure. We
      Complete the budgeted          number of initial disability claims    report data on claims received and claims pending in
     number of initial disability    processed as a percentage of initial   the PAR and provide discussion to keep the reader
              claims                 disability claims received. The        informed.
12                                   implementation of this PI would
                                     help the readers of the PAR
                                     determine how SSA is managing
                                     its current initial disability claim
                                     workload.
                 2.1c                Consider creating a PI to address      We disagree. This PI provides the reader with a
          Minimize average           the accuracy of case processing        good indicator of how long it takes us to render a
      processing time for initial    (that is, are claims processed with    decision for initial disability claims. Longer
         disability claims to        greater speed processed at the         processing times do not necessarily equate to
       provide timely decisions      same or greater level of accuracy      increased complexity. We delay case processing for
                                     than other claims which require        many reasons including a claimant’s failure to
13                                   longer processing times due to the     cooperate; the need for additional medical evidence;
                                     complexity of the claim?).             or need for a consultative examination. From an
                                     Implementation of this PI would        accuracy standpoint, there is no direct correlation
                                     help readers of the PAR determine      between longer and shorter processing times.
                                     how SSA is improving the quality       Creating a PI as you suggest might confuse readers
                                     of the services provided by its        of the PAR.
                                     disability determination process.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                     C-11
             Related PI                       Recommendation                                    Response
                  2.2a               Consider creating a PI to measure    We disagree. This PI relates to the overall strategic
          Achieve the target         the reduction of SSA resources       goal of “Improve the Speed and Quality of Our
         percentage of initial       (time, money, human capital, etc.)   Disability Process.” It is an outcome based indicator
      disability claims filed on-    for on-line applications.            (as you note in your report) and provides the reader
                  line               Implementation of this PI would      with direct information about our services. Your
14
                                     help readers of the PAR determine    suggestion that a different measure would help
                                     whether SSA is using its resources   readers of the PAR assess whether we are using our
                                     efficiently and effectively.         resources effectively is outside the scope of the
                                                                          strategic goal.

                                     Consider creating a PI to monitor    We disagree. The existing PI reflects the
                                     the effectiveness of Agency          effectiveness of our initiatives. It is an outcome-
                                     initiatives that encourage the use   based indicator and we provide detailed information
                                     of the online application process.   about performance in the discussion section of the
15                                   Implementation of this PI would      PAR.
                                     help readers of the PAR determine
                                     how SSA is improving the speed
                                     and ease of use of its disability
                                     process.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                   C-12
              Related PI                      Recommendation                                       Response
                  2.2b               Consider creating a PI to track the     We disagree. Many non-performance related factors
      Achieve the target number      number of initial disability claims     affect the number of initial disability claims
      of initial disability claims   pending as a percentage of initial      pending-- filing rates, staffing levels, the time it
                pending              disability claims received.             takes to train new employees, and changes in
                                     Implementation of this PI would         business processes. There are also other
16                                   correlate to the Agency’s strategic     contributing factors such as when States
                                     goal of improving the speed of the      unnecessarily furlough Disability Determination
                                     disability process.                     Service employees. We discuss this in the PAR and
                                                                             provide additional data on claims pending to keep
                                                                             the reader informed.

                                     Consider establishing a “long-term      We disagree. We establish long-term outcomes in
                                     outcome” for the number of initial      the ASP, not the APP.
17                                   disability claims pending and
                                     correlate the target for this PI with
                                     the plan.
                 2.3a                Consider eliminating the indicator      We agree to consider your recommendation.
         Update the medical          from the APP because the target –
       Listings of Impairments       “Publish eight Social Security
18
                                     Rulings in the Federal Register”
                                     does not result in updating the
                                     listing.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                     C-13
            Related PI                  Recommendation                                          Response
                 3.1a           Consider creating a PI to track the        We disagree. This PI is outcome-based indicator
      Percent of retirement and number of retirement and                   and a sound measure of performance. As discussed
      survivors claims receipts survivors claims processed as a            this in the PAR, we process all retirement and
         completed up to the    percent of the total retirement and        survivor claims quickly and have done so for several
19         budgeted level       survivors claims received.                 years.
                                Implementation of this PI would
                                help readers of the PAR determine
                                how SSA is managing its current
                                workload.
                 3.3a           Consider creating a PI to track            We disagree. This is an outcome-based PI and a
       Achieve the target speed customer satisfaction with                 sound measure of how quickly we answer 800
20    in answering National 800 telephone service.                         number calls. We track customer satisfaction for all
            Number calls                                                   modes of service, including telephone service, in PI
                                                                           3.4a.

                  3.4a               Consider developing a strategic       We disagree. This is an outcome-based PI and it
      Percent of individuals who     objective that aligns with            measures “overall services.” This includes field
        do business with SSA         measuring SSA’s overall services,     offices, hearings offices, 800 number services, and
21
      rating the overall services    not just services received in field   online services.
      as “excellent,” “very good,”   offices.
               or “good”




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                     C-14
             Related PI                      Recommendation                                         Response
                 3.5a                Consider setting the target for this    We disagree. Although we strive for a high level of
          Achieve the target         PI to 100 percent. Issuing Social       accuracy, it is not realistic to expect an error-free
       percentage for correctly      Security numbers correctly is vital     SSN assignment process.
22     assigning original social     to the success of SSA’s mission.
          security numbers           Setting the target at less than
                                     100 percent communicates a
                                     message that the Agency is not
                                     striving to issue all Social Security
                                     numbers accurately.
                                     Consider presenting both the            We agree to consider your recommendation.
                                     target percentage and performance
                                     percentage at one decimal place to
23                                   avoid misleading the reader by
                                     reporting 100 percent (due to
                                     rounding) when there are known
                                     errors.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                       C-15
              Related PI                      Recommendation                                      Response
                  4.1a               Consider eliminating PIs 4.1a –        We disagree. The Administration has placed a
        Complete the budgeted        “Complete the Budgeted Number          priority on limiting improper payments, and our
       number of Supplemental        of Supplement Security Income          actions under PIs 4.1a and 4.1b are vital to that
         Security Income non-        Non-Disability Redeterminations”       effort. The PIs are outcome-based and relate
               disability            and 4.1b – “Process the Budgeted       directly to requirements of the Improper Payments
           redeterminations          Number of Continuing Disability        Elimination and Recovery Act and Executive Order
                                     Reviews” as key PIs in its APP.        13520, Reducing Improper Payments.
                4.1b                 They only measure whether SSA
        Process the budgeted         has performed redeterminations or
        number of continuing         continuing disability reviews
24       disability reviews          rather than focusing on the
                                     outcome of those efforts. We noted
                                     that the outcomes of those efforts
                                     are reflected in PIs 4.1c – “Percent
                                     of Supplemental Income payments
                                     free of overpayment and
                                     underpayments error” and 4.1d –
                                     “Percent of Old-Age, Survivors, and
                                     Disability Insurance payments free
                                     of overpayment and underpayment
                                     error.”
          None – related to          Consider creating a PI to track the    We disagree. In the FY 2010 PAR, we discuss our
       Objective 4.3 Maintain        percent of unposted wage items in      commitment to maintaining accurate earnings
      accurate earnings records      the Earnings Suspense File (ESF)       records. PI 4.3a, Reduce the percentage of paper
                                     account. This would help readers       Forms W-2 completed, is an appropriate measure
25
                                     of the PAR determine how well          because it contributes to accuracy.
                                     SSA is resolving unposted wage
                                     items and maintaining the
                                     accuracy of the earnings records.



SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                                   C-16
             Related PI                 Recommendation                                       Response
                PI 4.5a         Consider eliminating PIs 4.5a -        We agree to consider your recommendation for PI
        Receive an unqualified  “Receive an unqualified audit          4.5a. We disagree for PIs 4.6a and 4.6b – these PIs
        audit opinion on SSA’s  opinion on SSA’s financial             relate to EO 13514 and the government-wide
         financial statements   statements,” 4.6a - “Replace           initiative to improve environmental, energy and
                                gasoline-powered vehicles with         economic performance.
               PI 4.6a          alternative-fuel vehicles”; and 4.6b
     Replace gasoline-powered -“Develop and implement an
26
     vehicles with alternative- Environmental Management
            fuel vehicles       System” as key indicators reported
                                in the APP. These three indicators
               PI 4.6b          do not measure or assess the
     Develop and implement an relevant output, service levels, and
      agency Environmental      outcomes the Agency’s key
       Management System        program for FY 2010.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                               C-17
KPMG Response
As stated earlier in the KPMG Response section of this report, a primary source of
difference between SSA and KPMG is our call for more outcome-based indicators. We
agree with SSA that output-based PIs are neither prohibited nor discouraged and are
not questioning their value. However, outcome-based indicators are more effective in
measuring performance and an agency’s progress in meeting its strategic goals. As
stated in our report, SSA continues to make great strides in meeting GPRA’s objectives
and has shown continued refinement of its PIs from yea -to year. Our
recommendations are targeted at further refinements to create more outcome-oriented
PIs that more clearly tie to SSA’s long-term performance goals.

KPMG Response to Bullet 1 Comment (see page C-3 for SSA comment)
In disagreeing with 21 of our recommendations and, in part, with 1 of our
recommendations, SSA believed that sufficient information was being provided through
the existing PIs. For example, in its comment letter, SSA pointed to the fact that it not
only exceeded its completed disability hearings’ target for FY 2010, but completed more
hearings in FY 2010 than any time in its history and that this “. . . contributed directly to
our overall goal of eliminating the hearings backlog and preventing its reoccurence.”

We do not question that completing more hearings is a positive achievement and
pointed out in our report that over the past 6 years, SSA has increased its target from
525,000 hearings in FY 2005 to 725,000 hearings in FY 2010. Nevertheless, hearings
are an output related to SSA’s goal of eliminating the hearings backlog and preventing
its reccurence; not an outcome. An outcome would be SSA’s progress against its
stated goal of reducing the backlog of hearings to 466,000 by FY 2013. In fact, SSA’s
annual target of pending hearings has varied from a backlog of 714,000 in FY 2005 to
707,000 in FY 2010, which is far from the goal of 466,000.

As discussed in our report, if you have a target to hear 750,000 cases in a year and
meet that target, but receive 1 million additional new hearing requests, the backlog only
increases despite your best efforts. The public is interested in how well SSA is doing in
in meeting the goal of reducing the backlog, not in whether the Agency met the target of
hearing 750,000 cases. This is why we recommended that SSA consider creating a PI
to track the number of disability hearings processed as a percentage of disability
hearings requested during the FY to help readers of the PAR better understand SSA’s
ability to process disability hearing requests received during the current fiscal year and
thereby to reduce the backlog. Such an outcome-based PI would have shown that
despite appreciably increasing the number of completed hearings, the backlog had
remained largely unchanged.
Our recommendation is focused on creating an outcome-based PI to further enhance
SSA’s reporting under GPRA and the GPRA Modernization Act of 2010 and better focus
on results.



SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                    C-18
KPMG Response to Bullet 2 Comment (see page C-3 for SSA comment)
In its comments, SSA took the position that KPMG incorrectly stated that SSA should
develop performance targets without regard to the budget. Our point has a much
different context. Our concern is that by establishing a number of the PIs based
exclusively on the amount appropriated to SSA, the focus is on the output and not on
the outcome against the long-term goal. As discussed earlier in this report, rather than
being budget-driven vehicles, performance targets for each PI should represent the
long-term performance aspirations regardless of the budget. Not meeting a
performance target in any given year does not necessarily represent a blemish on an
agency’s performance. For example, if SSA successfully completed the number of
budgeted hearings but did not reduce the backlog, the question “why not” could be
asked. The answer could be the need for additional resources and/or changes to
process and systems.
Achieving a number of hearings tied to the budget helps facilitate the goal of reducing
the hearing backlog but is an output and not an outcome. The outcome is the progress
SSA has made in reducing the backlog to meet its FY 2013 goal of having 466,000
pending disability cases and not how many hearings were completed in the current
year.

KPMG Response to Bullet 3 Comment (see page C-4 for SSA comment)
With respect to SSA’s long-term goal of reducing the time it takes to receive a hearing
decision to 270 days, the PI is output-based as it is tied to the budget and not the
long-term goal. It would be more meaningful to have an outcome-based PI that
measures how well SSA is meeting its long-term goal of 270 days to render a disability
decision. We do not question SSA’s commitment to meet its long-term goal of reducing
the time it takes to render a hearing decision to 270 days, but again, we view the PI as
output-based as it is tied to the budget and not the long-term goal. It would be more
meaningful to have an outcome-based PI tied to how well SSA is doing in meeting its
long-term goal of 270 days to render a disability decision.

KPMG Response to Bullet 4 Comment (see page C-4 for SSA comment)
We do not disagree with SSA’s observation that GPRA broadly defines a program. At
the same time, while we do not question the importance of protecting our nation’s
environment, the two PIs “replacing gasoline-powered vehicles with alternative-fuel
vehicles” and “develop and implement an Environmental Management System” do not
measure progress toward the administration of SSA’s “major functions and operations,”
which is the focus of GPRA and the GPRA Modernization Act of 2010. Therefore, we
recommended that SSA consider eliminating these PIs and instead focus on those PIs
that better measure results related to SSA’s major programs and operations. However,
given their importance as a national priority, we have modified our recommendation for
SSA to consider whether to keep tracking these two PIs as secondary measures.
This does not mean that we believe these PIs should not be tracked by SSA as
secondary measures, given the importance of protecting the environment as a national
priority, and we have modified our recommendation accordingly.

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                C-19
KPMG Response to Bullet 5 Comment (see page C-5 for SSA comment)
To the extent SSA can move to more outcome-based measurement, we believe the
expectations of the President and the Congress for performance and results
management would be better achieved. Outcomes more clearly correlate to results,
which is at the heart of GPRA in setting forth that PIs in an agency’s performance plan
“…. shall provide a basis for comparing actual program results with the established
performance goals” and the recently enacted GPRA Modernization Act of 2010 1 in
calling for “general goals and objectives, including outcome-oriented goals, for major
functions and operations of the agency.”
Our recommendation is focused on creating an outcome-based PI to further enhance
SSA’s reporting under GPRA and the GPRA Modernization Act of 2010 and better focus
on results.

KPMG Response to Bullet 6 Comment (see page C-5 for SSA comment)
SSA took the position that KPMG incorrectly stated that SSA should develop
performance targets without regard to the the budget. Our point has a much different
context. Our concern is that by establishing a number of the PIs based exclusively on
the amount appropriated to SSA, the focus is on the output and not on the outcome
against the long-term goal. As discussed earlier in this report, rather than being budget-
driven vehicles, performance targets for each PI should represent the long-term
performance aspirations regardless of the budget. Not meeting a performance target in
any given year does not necessarily represent a blemish on an agency’s performance.
For example, if SSA successfully completed the number of hearings budgeted for but
did not reduce the backlog, then the question “why not” could be asked. The answer
could be the need for additional resources and/or changes to process and systems.
Achieving a number of hearings tied to the budget helps facilitate the goal of reducing
the hearing backlog but is an output and not an outcome. The outcome is the progress
SSA has made in reducing the backlog to meet its FY 2013 goal of having 466,000
pending disability cases and not how many hearings were completed in the current
year.

KPMG Response to Bullet 7 Comment (see page C-5 for SSA comment)
We do not disagree with SSA’s observation that GPRA broadly defines a program. At
the same time, while we do not question the importance of protecting our nation’s
environment, the two PIs “Replacing gasoline-powered vehicles with alternative-fuel
vehicles” and “Develop and implement an Environmental Management System” do not
measure progress toward the administration of SSA’s “major functions and operations,”
which is the focus of GPRA and the GPRA Modernization Act. Therefore, we
recommended that SSA consider eliminating these PIs and instead focus on those PIs
that better measure results related to SSA’s major programs and operations. However,
given their importance as a national priority, we have modified our recommendation to
SSA to consider whether to keep tracking these two PIs as secondary measures.

1
    31 U.S.C. § 1120(a)(3)(A).

SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                C-20
This does not mean we believe these PIs should not be tracked by SSA as secondary
measures, given the importance of protecting the environment as a national priority, and
we have modified our recommendation accordingly.
Presented below are KPMG’s responses to SSA’s comments related specifically to our
detailed recommendations:


        Related PI                    SSA Comment                             KPMG Response
           1.1a             We disagree. This PI is a valid      We agree that this is a valid output
       Complete the         output measure. Each year, we        measure. Our recommendation is
    budgeted number of      continue to increase our capacity    focused on creating an outcome-based
     hearing requests       to hear and decide cases. We         PI to further enhance SSA’s reporting
1
                            discuss this in the FY 2010 PAR,     under GPRA and the GPRA
                            provide historical perspective,      Modernization Act and better focus on
                            and discuss the improvements         results.
                            we are making to our processes.
           1.2a             We disagree. In the PAR, we          Achieving a number of hearings tied to
     Achieve the target     state that eliminating the           the budget helps facilitate the goal of
     number of hearing      hearings backlog remains our         reducing the hearing backlog but is an
     requests pending       top priority. This PI supports our   output and not an outcome. The
                            long-term goal of reducing our       outcome is the progress SSA has made
2                           pending hearings to 466,000.         to reduce the backlog to meet its
                            We determined that is the            FY 2013 goal of having 466,000 pending
                            pending level necessary to           disability cases and not how many
                            ensure a sufficient “pipeline” of    hearings were completed in the current
                            cases to maximize the efficiency     year.
                            of our hearings process.
             1.2c           We disagree. In the PAR, we          We do not question SSA’s commitment
         Achieve the        discuss our commitment to            to meet its long-term goal of reducing the
      budgeted goal for     achieving the long-term goal of      time it takes to render a hearing decision
     average processing     reducing the time it takes an        to 270 days, but again, we view the PI as
       time for hearing     individual to receiving a hearing    output-based as it is tied to the budget
          requests          decision to an average of 270        and not the long-term goal. It would be
                            days.                                more meaningful to have an outcome-
                                                                 based PI tied to how well SSA is doing in
                                                                 meeting its long-term goal of 270 days to
                                                                 render a disability decision.
            1.2d            We disagree. This PI is a valid      We are not questioning whether this
    Achieve the target to   output measure. In the PAR, we       measure is a valid output measure. Our
4   eliminate the oldest    include trend data and a             recommendation focuses on developing
       Appeals Council      discussion of our performance.       an outcome-oriented PI that could
     requests for review                                         incorporate the output measure.
          pending           We disagree. We establish long-      We have changed the final report to
                            term outcomes in the Agency          make clear that we are talking about
                            Strategic Plan (ASP), not the        presenting the outcomes in the APP and
                            Annual Performance Plan (APP).       establishing the long-term goals that
5                           As stated in the FY 2010 PAR,        drive the outcomes in the ASP.
                            we will continue to focus on
                            eliminating the oldest cases
                            pending review by the Appeals
                            Council.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                C-21
         Related PI                    SSA Comment                                KPMG Response
                             We disagree. This is an ASP            The timing of this change was not a
                             goal, and we cannot alter it until     condition of our recommendation, so it
                             we issue a new ASP. In                 could be part of the issuance of a new
                             addition, under GPRA guidance,         ASP. Also, we do not view our
                             agencies must develop a limited        recommended change in the strategic
6
                             number of high-level strategic         goal’s title as adding a subset of the goal
                             goals. “Eliminating Our Hearing        but as making it more descriptive of what
                             Backlog” is high-level; “Appeals       is already being covered by the goal.
                             Council cases pending” is a
                             subset of that goal.
             1.2e            We disagree. In the FY 2010            We continue to believe that SSA should
      Achieve the target     PAR, we reported on the record         consider further refining this PI to be
     average processing      number of hearings requests            more outcome-oriented. Again, the fact
       time for Appeals      processed. This led to a large         that a record number of hearings
     Council requests for    influx of Appeals Council              occurred is an important achievement
            review           requests. This and other factors,      that we recognize in our report; but, as
                             such as staffing constraints,          SSA points out in its comment on this
7
                             make it difficult to define an         recommendation, “. . . this led to a large
                             optimum processing time. The           influx of Appeals Council requests.” This
                             existing “. . . target average         is why progress against reducing the
                             processing time” is a sound            backlog and not how many cases were
                             measure, and the PAR contains          heard in a given year should be the
                             sufficient information for the         central focus of the PI.
                             reader.
              2.1a           We disagree. We continue to            We disagree with SSA and continue to
      Achieve the target     refine our predictive model to         believe that further refinement of SSA’s
     percentage of initial   identify disability cases involving    performance reporting by creating a PI to
        disability cases     medical conditions where a             measure and report the average
     identified as a QDD     favorable disability determination     processing time for these important
     or a Compassionate      is highly likely. This PI tracks our   categories of claims has merit. Since
           Allowance         performance in that area and is a      SSA commented that this is being done
8
                             valid measure. We track                for internal purposes, adding this PI
                             average processing times for           would not seem to impose any additional
                             Quick Disability Determination         costs on SSA, while providing
                             (QDD) and Compassionate                information of value to the public.
                             Allowance (CAL) cases (as you
                             recommend) for internal
                             purposes.
                             We agree to consider your
9                            recommendation.

                             We disagree. We track this             The intent of our recommendation is to
                             information and report it              further refine what SSA is already
                             internally.                            reporting, but now only doing for the last
                                                                    month of the year, so that this
                                                                    performance information is available
10
                                                                    throughout the year. SSA commented
                                                                    that it already tracks this information and
                                                                    reports it internally. Therefore, it would
                                                                    seem this should not impose any
                                                                    additional costs on SSA.
                             We agree to consider your
11                           recommendation.


SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                     C-22
         Related PI                      SSA Comment                            KPMG Response
              2.1b             We disagree. This PI is a valid      This PI focuses on outputs against the
        Complete the           output measure. We report data       budget similar to our comments in Note
     budgeted number of        on claims received and claims        2. We continue to believe the focus
12
       initial disability      pending in the PAR and provide       should be outcome-oriented whenever
             claims            discussion to keep the reader        possible.
                               informed.
              2.1c             We disagree. This PI provides        We noted the need for an additional PI
      Minimize average         the reader with a good indicator     focused on quality that ties to the overall
     processing time for       of how long it takes us to render    strategic goal of improving speed and
       initial disability      a decision for initial disability    quality of the disability process. We
      claims to provide        claims. Longer processing times      have revised our recommendation to
      timely decisions         do not necessarily equate to         better focus on quality measures and to
                               increased complexity. We delay       make clear that quality and timeliness
                               case processing for many             are two separate but related measures.
                               reasons including a claimant’s
13                             failure to cooperate; the need for
                               additional medical evidence; or
                               need for a consultative
                               examination. From an accuracy
                               standpoint, there is no direct
                               correlation between longer and
                               shorter processing times.
                               Creating a PI as you suggest
                               might confuse readers of the
                               PAR.
              2.2a             We disagree. This PI relates to      The ability to file a disability claim online
      Achieve the target       the overall strategic goal of        is an important tool in promoting greater
     percentage of initial     “Improve the Speed and Quality       efficiency and effectiveness of the
     disability claims filed   of Our Disability Process.” It is    disability determination process. At the
             online            an outcome-based indicator (as       same time, the target percentage of
                               you note in your report) and         initial disability claims filed online is an
                               provides the reader with direct      output. The outcome would be whether
                               information about our services.      SSA has been able to “improve the
                               Your suggestion that a different     speed and quality of its disability
                               measure would help readers of        process,” as stated in SSA’s comments.
                               the PAR assess whether we are        Our recommendation is focused on
                               using our resources effectively is   adding an outcome-oriented measure
                               outside the scope of the strategic   related to whether SSA is saving
14                             goal.                                resources as a result of online filing of
                                                                    disability claims. Given the large
                                                                    backlog of disability claims and the
                                                                    impact of long timeframes for disability
                                                                    determinations on the public, efficiency
                                                                    of SSA’s process is important. We view
                                                                    the percentage of on-line claims being
                                                                    filed as a subset of the broader goal
                                                                    related to speed and quality and
                                                                    continue to believe that SSA should
                                                                    consider adding a PI that measures the
                                                                    impact of greater on-line filing. We have
                                                                    revised our recommendation to make
                                                                    clear the focus on efficiency.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                       C-23
        Related PI                   SSA Comment                              KPMG Response
                          We disagree. The existing PI          We continue to believe that measuring
                          reflects the effectiveness of our     the effectiveness of initiatives that
                          initiatives. It is an outcome-        encourage the use of the online
                          based indicator, and we provide       application process for filling disability
                          detailed information about            claims would be useful since it would
                          performance in the discussion         focus on the result. Combined with our
                          section of the PAR.                   previous recommendation, there could
15
                                                                be a better understanding of the cost
                                                                savings from expanding the use of
                                                                on-line filing and the effectiveness of the
                                                                program in achieving the goal of moving
                                                                to greater on-line filing. This could also
                                                                help in identifying potential
                                                                improvements in the program.
            2.2b          We disagree. Many non-                We agree that this is a valid output
     Achieve the target   performance-related factors           measure. Our recommendation is
      number of initial   affect the number of initial          focused on creating an outcome-based
      disability claims   disability claims pending—filing      PI to further enhance SSA’s reporting
          pending         rates, staffing levels, the time it   under GPRA and the GPRA
                          takes to train new employees,         Modernization Act of 2010 and better
                          and changes in business               focus on results.
                          processes. There are also other
16
                          contributing factors such as
                          when States unnecessarily
                          furlough disability determination
                          service employees. We discuss
                          this in the PAR and provide
                          additional data on claims
                          pending to keep the reader
                          informed.
                          We disagree. We establish long-       We have revised the recommendation to
                          term outcomes in the ASP, not         make clear that we are calling for the
17                        the APP.                              long-term outcome to be established in
                                                                the ASP when it is updated and not in
                                                                the APP.
            2.3a          We agree to consider your             .
     Update the medical   recommendation.
18
         Listings of
        Impairments




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                 C-24
          Related PI                  SSA Comment                               KPMG Response
              3.1a           We disagree. This PI is               We agree that this is a valid output
     Percent of retirement   outcome-based indicator and a         measure. Our recommendation is
     and survivors claims    sound measure of performance.         focused on creating an outcome-based
      receipts completed     As discussed this in the PAR, we      PI to further enhance SSA’s reporting
      up to the budgeted     process all retirement and            under GPRA and the GPRA
              level          survivor claims quickly and have      Modernization Act of 2010 and better
                             done so for several years.            focus on results. We also believe a PI
                                                                   focused on the budget is limiting and that
19
                                                                   it would be enhanced by reporting on the
                                                                   percentage of new retirement and
                                                                   survivors claims processed compared to
                                                                   claims received. Also, the extent to
                                                                   which SSA is doing this quickly, which is
                                                                   mentioned in its comments, would be
                                                                   covered by the new PI we are
                                                                   recommending.
            3.3a             We disagree. This is an               We have clarified our recommendation to
      Achieve the target     outcome-based PI and a sound          call for SSA to link performance
     speed in answering      measure of how quickly we             information on the quality of the
20
        National 800-        answer 800-number calls. We           telephone service (3.4a) with what is
        Number calls         track customer satisfaction for all   being measured on the speed of
                             modes of service, including           answering the telephone (3.3a).
                             telephone service, in PI 3.4a.
              3.4a           We disagree. This is an               Our understanding is that SSA has been
           Percent of        outcome-based PI and it               measuring the results of overall services
      individuals who do     measures “overall services.”          provided through the field offices. We
      business with SSA      This includes field offices,          are calling for such measurement to
21
       rating the overall    hearings offices, 800-number          include services that are not provided in
          services as        services, and online services.        the field offices.
       “excellent,” “very
       good,” or “good”
              3.5a           We disagree. Although we strive       We do not disagree with SSA that
      Achieve the target     for a high level of accuracy, it is   correctly assigning Social Security
        percentage for       not realistic to expect an error-     numbers 100 percent of the time may
      correctly assigning    free SSN assignment process.          never be achieved given the large
         original social                                           volume and human error. However, that
       security numbers                                            does not mean the target should not be
                                                                   100 percent given the critical importance
22
                                                                   of a properly assigned Social Security
                                                                   number to the public that is depending
                                                                   on SSA to get this right. The Social
                                                                   Security number is so vital to the
                                                                   success of SSA’s mission that we
                                                                   believe it sends the wrong message to
                                                                   the public and SSA’s employees to set
                                                                   the performance goal at anything less
                                                                   than 100 percent.
                             We agree to consider your             .
23                           recommendation.




SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                  C-25
         Related PI                    SSA Comment                              KPMG Response
            4.1a             We disagree. The                      These two PIs are output-oriented and
        Complete the         Administration has placed a           tied to the budget, whereas two other
     budgeted number of      priority on limiting improper         related PIs are outcome-oriented. If SSA
        Supplemental         payments, and our actions under       believes it should keep the two PIs we
       Security Income       PIs 4.1a and 4.1b are vital to that   recommended be eliminated because of
        non-disability       effort. The PIs are outcome-          the increasing high priority the
      redeterminations       based and relate directly to          Administration and the Congress have
                             requirements of the Improper          placed on reducing improper payments,
             4.1b            Payments Elimination and              we recommend that it revise the PIs to
24
        Process the          Recovery Act and Executive            instead focus on Supplemental Security
     budgeted number of      Order 13520, Reducing Improper        Income Non-Disability redeterminations
     continuing disability   Payments.                             and Continuing Disability reviews as a
           reviews                                                 percentage of the potential population of
                                                                   such redeterminations/reviews, as
                                                                   opposed to whether they met the
                                                                   budgeted number. We have modified
                                                                   our recommendation to recognize this
                                                                   second option.
      None – related to      We disagree. In the FY 2010           We continue to believe that creating this
       Objective 4.3         PAR, we discuss our                   PI would help readers of the PAR better
      Maintain accurate      commitment to maintaining             understand how well SSA is doing in
      earnings records       accurate earnings records. PI         maintaining accurate earnings records,
                             4.3a, “Reduce the percentage of       which are vital to ensuring recipients
                             paper Forms W-2 completed,” is        receive the correct benefit at the time of
25                           an appropriate measure because        their retirement. We view the
                             it contributes to accuracy.           percentage of unposted wage items in
                                                                   the Earnings Suspense File as a good
                                                                   outcome-oriented measure to
                                                                   complement the existing PI to reduce the
                                                                   percentage of paper Form W-2s
                                                                   completed, which is output-oriented.
            PI 4.5a          We agree to consider your             We do not question the importance of
          Receive an         recommendation for PI 4.5a. We        protecting our nation’s environment.
        unqualified audit    disagree for PIs 4.6a and 4.6b –      However, the two PIs “replacing
       opinion on SSA’s      these PIs relate to EO 13514          gasoline-powered vehicles with
     financial statements    and the government-wide               alternative-fuel vehicles” and “develop
                             initiative to improve                 and implement an Environmental
            PI 4.6a          environmental, energy and             Management System” do not measure
     Replace gasoline-       economic performance.                 progress toward the administration of
      powered vehicles                                             SSA’s “major functions and operations,”
     with alternative-fuel                                         which is the focus of GPRA and the
           vehicles                                                GPRA Modernization Act of 2010.
26
                                                                   Therefore, we recommended that SSA
           PI 4.6b                                                 consider eliminating these PIs and
         Develop and                                               instead focus on those PIs that better
        implement an                                               measure results related to SSA’s major
           agency                                                  programs and operations. This does not
        Environmental                                              mean that we believe these PIs should
        Management                                                 not be tracked by SSA as secondary
           System                                                  measures, given the importance of
                                                                   protecting the environment as a national
                                                                   priority, and we have modified our
                                                                   recommendation accordingly.



SSA’s FY 2010 Performance Indicators (A-02-10-11076)                                                  C-26
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
